GSA's SIGNIFICANT MANAGEMENT CHALLENGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and
discussed in this semiannual report.


                           BRIEF DESORIPTION OF OHAI..I..ENGE                           PAGE

PROTECTION OF              GSA is responsible for protecting the life and safety        2-5
FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

MANAGEMENT                 Management controls have been streamlined, resulting         5-7
OONTROLS                   in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and consistently
                           followed.

PROCUREMENT                Simplified processes have reduced order and delivery         7 -9,
ACTIVITIES                 time, yet competitive principles are not always followed     12 -18
                           and opportunities may be missed for less costly services
                           and products.

INFORMATION                Technology applications have increased exponentially         10-11
TEOHNOLOGY                 as HE-Gov" is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

HUMAN CAPITAL              GSA's corporate knowledge is eroding and efforts to          No
                           obtain requisite skills for the future are impeded. Better   Reports
                           recruitment and training programs are needed to              This
                           develop the 21 st century workforce.                         Period

AGING FEDERAL              GSA is being challenged to provide quality space to          No
BUILDINGS                  Federal agencies using an aging, deteriorating inventory     Reports
                           of buildings and facing critical budgetary limitations in    This
                           its modernization program.                                   Period
           Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the 6-month reporting period that ended March 31, 2002.

The beginning of this reporting period found us, like all Americans, still
attempting to come to grips with the tragic events of September 11th. In the
wake of those events, and the anthrax attacks that followed, security issues
have become of paramount concern. In consultation with GSA officials, our
office conducted an inspection review of security systems and equipment at
Federal facilities across the nation. This was one of the largest reviews ever
undertaken by the OIG with more than 50 professional staff members visiting
buildings in nearly every state to evaluate whether security systems were
installed and functioning properly.

Our inspection found that substantial progress has been made and that
security equipment generally was in place and operating as intended. The
review did raise two new issues requiring attention: aging surveillance
equipment and the need for guidance on measures to deter bioterrorism
threats. In another security related review, we provided program officials with
information on how to improve the existing building security risk assessment
process.

Even though a substantial amount of our resources were diverted to these
unforeseen critical assignments, we were still able to carry on with most of
our planned projects, albeit with some delays. We continued to work with
GSA to identify sound business management and operational improvements
in the Agency’s programs and operations. We issued a number of reports
focusing on the major management issues facing the Agency, including
building security, management controls, procurement activities, and
information technology. We reported that management control over the use
of travel and purchase cards remains a major concern. Also in a recent
review of GSA’s development and implementation of a new accounting and
financial management system, we noted that the Agency, while headed in the
right direction on the project, needs to establish a plan to integrate the new
system with its many existing financially-related operations.

We identified over $82 million in financial recommendations on how funds
could be put to better use and in other program savings. Also, we made
211 referrals for criminal prosecution, civil litigation, and administrative action.
Criminal cases originating from OIG referrals resulted in 31 successful
prosecutions. Savings achieved from management decisions on audit
financial recommendations, civil settlements, and investigative recoveries
totaled over $107 million.

I want to express my appreciation to Congress, as well as the senior
management of the Agency, for their support over this past year to the
           Foreword




mission of this Office. I also want to express my appreciation for the
accomplishments of all OIG employees and commend them for their
continued professionalism, dedication, and willingness to accept new
challenges.




Daniel R. Levinson
Inspector General
April 30, 2002
     Table of Contents




                                                                                          Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . .2

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . .12

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . .22

Partnering with GSA Management . . . . . . . . . . . . . . . . . . . . . . . .26

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . .29

Appendices

Appendix I–Significant Audits from Prior Reports . . . . . . . . . . . . . .37

Appendix II–Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .40

Appendix III–Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48

Appendix IV–Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .60

Appendix V–Report over 6 Months Old with No Management
 Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61

Appendix VI–Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .62




This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                                   Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     October 1, 2001 - March 31, 2002

                        Total financial recommendations                              $82,946,633

                        These include:

                        • Recommendations that funds be put to better use            $82,242,253

                        • Questioned costs                                             $704,380

                        Audit reports issued                                               70

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                             211

Results Attained        Management decisions agreeing with audit
                        recommendations; civil settlements; and
                        court-ordered and investigative recoveries                   $107,585,824

                        Indictments and informations on criminal referrals                 18

                        Cases accepted for criminal prosecution                            24

                        Cases accepted for civil action                                     7

                        Successful criminal prosecutions                                   31

                        Civil settlements                                                   1

                        Contractors/individuals debarred                                   24

                        Contractors/individuals suspended                                  38

                        Employee actions taken on administrative referrals
                        involving GSA employees                                            17




                                                                        Office of Inspector General v
                              Executive Summary




                            During this period, the OIG continued to direct its audit, investigative, and
                            evaluative resources to activities that address what we believe to be the
                            major management challenges facing the Agency. We provided a variety
                            of traditional services, including program evaluations; contract and
                            financial auditing; management control reviews; and investigative
                            coverage and litigation support in contract claims, civil fraud and
                            enforcement actions, and criminal prosecutions. We also continued to
                            provide professional assistance through enhanced consulting services,
                            alert reports designed to quickly inform management of potentially serious
                            deficiencies, and reviews of proposed legislation and regulations.

                            Management Challenges
                            We have highlighted a number of reviews that address major
                            management issues facing GSA. In November 2000, we identified to
                            members of the Congressional leadership the most serious management
                            challenges currently facing the Agency. Some of these challenges are in
                            the areas of Federal facilities and personnel protection, management
                            controls, procurement activities, and information technology (IT). Our
                            efforts during this period focused on the following:

                            Protection of Federal Facilities and Personnel
                            GSA is responsible for developing and managing a physical security
                            program aimed at protecting Federal buildings and the people who work
                            in and visit them. We have issued over 25 audit and special alert reports
                            recommending corrective actions and improvements in all aspects of the
                            program. In October 2001, the Inspector General and GSA management
                            agreed that the best way the OIG could assist GSA in the near term was
                            to assess whether building electronic security systems were in place and
                            operational nationwide. In addition, the OIG completed its review of the
                            new Federal Security Risk Manager Program, an assessment protocol
                            designed to enhance the quality of building security surveys.

                            In order to provide real-time information on the functioning of security
                            equipment at Federal facilities nationwide, more than 50 OIG professional
                            staff members assessed 173 major buildings located in 46 states and the
                            District of Columbia. With only minor exceptions, we found that security
Security equipment within
                            countermeasures were installed and operating as intended. However, the
    Federal facilities      review found two issues that impact the overall security program. First,
                            we noted that some of the electronic surveillance equipment was aging
                            and in some cases not as effective as when new. The second issue
                            raised was the need for more guidance on measures that should be
                            added to building security plans to deter bioterrorism threats (page 3).

                            Although not a specific objective of the above review, one of our many
     Alarm testing          field teams took steps to spot test alarm systems in several buildings. An
                            alert report was issued after tests revealed that a significant number of


                                                                            Office of Inspector General vii
                                           Executive Summary




                                         alarms, when triggered, failed to transmit a signal to the control center.
                                         Also, the alarm account information indicating where the problem exists
                                         contained inaccuracies and would not always direct authorities to the
                                         point of intrusion. Management immediately was made aware of these
                                         deficiencies and has initiated responsive action (page 4).

                                         Federal Protective Service (FPS) introduced the Federal Security Risk
                                         Manager Program in early 2000 as an enhanced method to identify
                                         buildings’ vulnerabilities and assess the adequacy of measures taken to
                                         lower the risks. FPS’s goal is to reduce threats at each facility through
 Assessment of buildings’                specific countermeasures to address risks. Our review of the first cycle
      vulnerabilities                    of assessments noted shortcomings in the implementation procedures
                                         and guidance for security officials. Risk assessments produced
                                         inconsistent results and corrective actions were at times misclassified if
                                         the needed corrective action was thought too difficult to address. Overall,
                                         the evaluation program is a positive step, but better guidance will produce
                                         more meaningful assessments (page 4).

                                         Management Controls
                                         As addressed in prior semiannual reports, non-adherence to management
                                         control over the use of travel and purchase cards still continues to be a
                                         major challenge facing GSA and across the government. In reducing
 Travel and purchase card                administrative barriers and promptly responding to customer needs,
          controls                       management eliminated many of the checks and balances previously part
                                         of the control system. Reviews performed in four separate locations
                                         indicated that approving officials do not always review activities to assure
                                         cardholders comply with card usage and procurement guidelines
                                         (page 5).

                                         Recently disclosed cases of widespread credit card abuse by employees
                                         at several other Federal agencies underscores the significant financial
                                         risk and loss of public confidence faced by all agencies who lack proper
                                         oversight of their employees’ use of charge cards to transact government
                                         business (page 6). In FY 2000, Federal employees used purchase cards
                                         provided under GSA contracts for more than $12 billion of transactions.
                                         Over 670,000 employees held cards for travel, purchase, and fleet needs.
                                         Our concern with GSA management oversight of its own cardholders’
                                         compliance with credit card policies continues.

                                         The Public Buildings Service (PBS) developed the Occupancy Agreement
                                         (OA) as a method to provide a complete, concise statement of the
                                         financial aspects of its customer space agreements as well as the
   Occupancy Agreement
                                         responsibilities of both PBS and the customer agency. It is expected that
                                         by the end of FY 2006, all tenancies in government-owned space will be
                                         covered by OAs. At the time of the review, only 62 percent of the




viii Semiannual Report to the Congress
                             Executive Summary




                           1,700 rent billing records sampled had OAs. In addition, existing
                           agreements were not routinely updated to reflect changes in space
                           assignment. Currently, there is no incentive or immediate repercussion
                           for not completing OAs. This has delayed improvement in PBS’s overall
                           billing and space management information processes (page 6).

                           In 2000, the Federal Supply Service (FSS) awarded contracts to five
   Desktop program         vendors for office products and services and new products technology
                           under the desktop program. The contracts require that when products
                           made by the Federal Prison Industries, the National Industries for the
                           Blind (NIB) and National Industries for the Severely Handicapped (NISH)
                           are available, vendors must sell these items rather than the commercially
                           equivalent ones.

                           In a previous review, we found that improvements needed to be made to
                           the desktop program because the contracts included too few commercial
                           items but too many NIB/NISH products. This reporting period, we did a
                           follow-up review to determine the current status of the program. We
                           concluded that FSS needs to consider the concerns of NIB/NISH, who
                           believe vendors are not blocking sales of commercial equivalent products
                           as required, and therefore harm these organizations by lost sales. We
                           recommended that FSS contracting officials obtain, analyze, and
                           determine whether government sales data for FY 2001 would help
                           improve the desktop program. This will allow FSS to identify government
                           customers; determine the extent of sales of NIB, NISH, and Federal
                           Prison Industries items versus comparable commercial items; and
                           analyze the types and prices of items being purchased by government
                           customers (page 8).

                           Leasing activities are an important part of PBS’s operations ($3.5 billion
                           annually). This period we reviewed a sample of leases in one region and
Lease award procedures
                           found that leasing personnel had not consistently followed appropriate
                           procedures or had used faulty data when awarding some leases. In one
                           case, this resulted in lease award to other than the lowest price offeror.
                           In addition, we found that the physical security of prospective commercial
                           properties was inadequately evaluated (page 9).

                           Information Technology
                           In 1998, a contract was awarded to purchase a commercial-off-the-shelf
                           product to replace GSA’s aging National Electronic Accounting and
Accounting and financial   Reporting (NEAR) system. The commercial product was to be used as
 management system         the basis for the new Agency-wide accounting and financial management
                           system known as “Pegasys,” but required extensive modification to meet
                           specific GSA needs. The Agency, however, underestimated the
                           magnitude and complexity of the changes, which have significantly
                           impacted the completion schedule and resulted in substantial cost



                                                                          Office of Inspector General ix
                                        Executive Summary




                                      increases. In FY 2001, management rescoped the work to bring it under
                                      a manageable schedule and cost control plan. Management no longer
                                      expects to completely replace NEAR in the foreseeable future. As part of
                                      the OIG’s most recent oversight report, we offered our view that additional
                                      work steps were needed to ensure successful implementation of
                                      Pegasys. Especially important was the need to develop an enterprise-
                                      wide financial system architecture and establish a plan to integrate
                                      Pegasys with the Agency’s many existing financially-related systems.
                                      The development approach is heading in the right direction; however,
                                      long-term plans for NEAR and Pegasys need to be better defined in order
                                      to fully support mission-based operations (page 10).

                                      Promoting and Protecting Integrity
                                      A construction contractor was convicted of Major Fraud Against the
                                      United States, and paid a $694,322 fine. The contractor was also
                                      proposed for debarment, effectively suspending it from receiving new
                                      Federal contracts (page 12). A library furniture supplier agreed to pay
                                      $575,000 to resolve potential civil liabilities under the False Claims Act.
                                      The company misrepresented itself when it granted a 16 percent discount
                                      to Federal agencies while state and local governments and other
                                      customers were given discounts of up to 61 percent (page 17).

                                      As a result of a joint investigation, we were able to obtain restitution of
                                      $6 million for fraudulent activities from two government contractors.
                                      Three executives of the two contractors were sentenced after being
                                      convicted of conspiracy to defraud the government, wire fraud, conspiracy
                                      to obstruct justice, and theft of government property: one of the three
                                      was sentenced to 60 months incarceration, another 20 months
                                      incarceration, and the third 3 years probation (page 13). Also, a Forest
                                      Service radio technician pled guilty to converting government property
                                      that he obtained for his own benefit. He was sentenced to 18 months
                                      incarceration, 3 years probation, and ordered to pay $4,000 in restitution
                                      (page 14).

                                      The OIG is a participant in the New York Electronic Crimes Task Force
                                      that investigates telecommunications fraud primarily involving facilities
                                      within the New York metropolitan area. As a result of our involvement
                                      with this task force, we completed investigations that resulted in four
                                      convictions this period (page 14). In addition, we completed an
                                      investigation that resulted in an owner of an automobile shop pleading
                                      guilty to submitting false claims to GSA in excess of $150,000 over a
                                      4-year period (page 15).

                                      Two separate investigations resulted in the convictions of two government
                                      employees for converting public funds to personal use by making charges




x Semiannual Report to the Congress
  Executive Summary




on GSA credit cards (page 16). Another investigation determined that the
president of a janitorial company submitted a false certification of
insurance to GSA. The company and its president entered into a pretrial
diversion agreement to perform 12 months probation and reimburse GSA
contract costs totaling $7,200 (page 16). Also, we completed an
investigation that resulted in the conviction of a former GSA employee
and a private accountant for bribery and conspiracy to defraud the
government. The employee conspired with several government
contractors and the private accountant to submit false claims on repair
and maintenance contracts in exchange for kickbacks to the employee
(page 16).

Summary of Results
The OIG made over $82 million in financial recommendations to better
use government funds; made 211 referrals for criminal prosecution, civil
litigation, and administrative actions; reviewed 226 legislative and
regulatory actions; and received 913 Hotline calls and letters. This
period, we achieved savings from management decisions on financial
recommendations, civil settlements, and investigative recoveries totaling
over $107 million. (See page v for a summary of this period’s
performance.)




                                                Office of Inspector General xi
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, assessment of management
                        controls, and financial and compliance audits. The office also conducts
                        external reviews in support of GSA contracting officials to ensure fair
                        contract prices and adherence to contract terms and conditions. The
                        office additionally provides advisory and consulting services to assist
                        Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review and Congressional liaison functions.

                      • The Internal Evaluation Staff, an analytical staff that plans and directs
                        field office appraisals and conducts internal affairs reviews and
                        investigations.

                      • The Office of Administration, an in-house staff that provides
                        information technology systems, budgetary, administrative, personnel,
                        and communications services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in
                      Auburn and Cleveland.

Staffing and Budget   As of March 31, 2002, our on-board strength was 282 employees. The
                      OIG’s Fiscal Year (FY) 2002 budget is $36.3 million.




                                                                      Office of Inspector General 1
                                      Management Challenges




                                      Each year since 1998, we have identified and shared with Congress and
                                      senior management what we believe to be the major challenges facing
                                      the Agency. This period we continued our work in addressing these
                                      challenges, making recommendations, and working with management to
                                      improve Agency operations. The following sections highlight our activities
                                      in some of these areas.

                                      Protection of Federal Facilities and Personnel
                                      Providing a safe, healthful, and secure environment for over 1 million
                                      workers and the visitors to over 8,300 owned and leased Federal facilities
                                      nationwide is a major multifaceted responsibility of GSA. In recent years,
                                      the increased risks from terrorism have greatly expanded the range of
                                      vulnerabilities traditionally faced by building operations personnel. The
                                      complexities involved in establishing a broadly integrated safety/security
                                      program make this a major challenge.

                                      Security in Federal Facilities
                                      Since the 1995 bombing of the Federal Building in Oklahoma City, GSA’s
                                      Federal Protective Service (FPS) has had an increased responsibility for
                                      security and law enforcement in Federal facilities. The OIG has
                                      consistently cited the protection of Federal facilities and personnel as one
                                      of the key management challenges facing GSA.

                                      The OIG has been continuously involved in the assessment of the
                                      physical security program managed by GSA. We have supported the
                                      Agency in its efforts to implement new security standards developed after
                                      Oklahoma City by performing, in a systematic manner, detailed reviews of
                                      the major elements of the overall security program. To date, we have
                                      issued more than 25 audit and special alert reports recommending
                                      improvements in all aspects of the physical security program.

                                      While we have seen substantial improvements in the overall security
                                      program since we started our evaluation work, both we and GSA
                                      management are aware that the program still faces many challenges —
                                      challenges that have been greatly expanded in nature and dimension by
                                      the recent terrorists events.

                                      In October 2001, the Inspector General and the GSA Administrator
                                      agreed that the most meaningful way that the OIG could assist GSA in
                                      ensuring that its building security systems were in place and operational
                                      would be for our office to conduct a large-scale nationwide review on an
                                      expedited basis. We also completed work on the new Federal Security
                                      Risk Manager Program. Details of these reviews follow.




2 Semiannual Report to the Congress
                      Management Challenges




                      Protection of Federal Facilities and Personnel (continued)

                      Security Equipment Countermeasures
                      The effort to provide real-time information on the functioning of security
                      equipment at Federal facilities nationwide was one of the largest reviews
                      ever undertaken by the OIG. More than 50 professional staff members
                      inspected 173 major buildings located in 46 states and the District of
                      Columbia, assessing whether all security systems called for were in fact
                      installed and properly functioning. All field work was completed in a little
                      over 8 weeks and summary results were available to senior managers
Operational status    soon thereafter.
  of electronic
                      On March 29, 2002, we issued our final report on the operational status
security systems      of security equipment countermeasures installed by FPS at Federal
  has improved        facilities. Prior audits had shown that GSA was not optimally
  substantially       implementing security equipment and structural enhancements
                      recommended by Building Security Committees (BSCs), GSA’s formal
   nationwide.        mechanism for addressing security concerns at each facility. These
                      BSC-recommended countermeasures were designed to detect and
                      prevent the introduction of weapons or explosives and access by
                      unauthorized personnel at Federal facilities. In a follow-up review in
                      1999, we found that although progress had been made following our
                      initial audit done during 1997 and 1998, further improvements were
                      necessary concerning the physical installation of security equipment, as
                      site inspections had identified uninstalled or non-operational
                      countermeasures that had been reported by FPS as having been
                      completed.

                      We were pleased to report that with only minor exceptions, security
                      countermeasures were installed and operating as intended. This result
                      showed that since our earlier reviews, GSA management had made
                      marked improvements in the overall security program.

                      Our review did find two issues that have impact on the overall security
                      program. First, we noted that some of the electronic surveillance
                      equipment was aging and in some instances was not as effective as
New threats require   when new. Moreover, advances in technology have made newer devices
 expanded policy      more effective. We urged management to establish a more defined cycle
                      of replacing equipment to better ensure proper functioning and to refresh
    guidance.         the technology.

                      We also raised an issue with senior managers that had been brought to
                      our attention by field personnel: the need for more guidance on
                      measures that should be added to building security plans to deter
                      bioterrorism threats. Field personnel are taking steps in many cases but
                      would welcome the best professional advice available to address what
                      the Federal law enforcement community considers to be a new and very
                      real threat.
                                                                        Office of Inspector General 3
                                      Management Challenges




                                      Protection of Federal Facilities and Personnel (continued)

                                      We acknowledge the significant improvements in building security made
                                      by FPS since 1995. Now, however, officials need to address equipment
                                      obsolescence as many items are reaching the limits of their useful life.
                                      Careful planning and budgeting are necessary to ensure that facilities are
                                      not left unprotected when older equipment breaks down and must be
                                      replaced with very costly new units.

                                      Alarm Testing
                                      While alarm testing was not a specific objective of the above review, one
                                      of our many field teams took steps to spot test alarm systems in several
                                      buildings undergoing security systems inspections. In these tests, a
                                      significant number of alarms, when triggered, failed to transmit the signal
                                      to the control center.

                                      We also noted that the control center maintained critically important alarm
                                      account information (which shows the location of the problem), that
                                      contained inaccuracies and would not always direct authorities to the
                                      correct location of the sounding alarm. Due to the serious nature of these
                                      deficiencies, we issued a separate alert report to enable management to
                                      take immediate corrective action, which is underway.

                                      The Federal Security Risk Manager Program
                                      FPS introduced the Federal Security Risk Manager (FSRM) Program in
                                      early 2000. The program represents a more sophisticated risk
                                      assessment survey methodology to better account for terrorism and
     Effective risk                   emerging chemical and biological threats. The program is designed as a
                                      probability/likelihood-based assessment that links threats, risk levels, and
   assessment is the                  countermeasure recommendations, while addressing vulnerabilities and
     key to sound                     the impact of loss should an incident occur. FPS’s goal is to reduce
     security plan                    threats at each facility through specific countermeasures to address risks
                                      classified as high, moderate, or low. FPS established a 2 to 4 year time
      decisions.                      cycle, depending on the building security level, between assessments of
                                      all GSA-controlled facilities.

                                      The creation of the FSRM is a significant step forward in designing
                                      enhanced security programs for individual buildings. That said, the first
                                      cycle of assessments was marred by shortcomings in the implementation
                                      procedures and guidance.

                                      Our review found the FSRM effort to assess and enhance security was
                                      impaired by ambiguous terminology, preparation errors, limited review
                                      and oversight, personnel resource issues, and the absence of a direct
                                      funding mechanism. We noted surveys that inadequately addressed
                                      security issues and/or included discrepancies and inconsistencies, such


4 Semiannual Report to the Congress
Management Challenges




Protection of Federal Facilities and Personnel (continued)

as underrated impact of loss or vulnerability ratings, countermeasure
recommendations not directly linked to threats or vulnerabilities, and
surveys lacking required intelligence data.

Many buildings with a high risk of vulnerability were rated low because
“nothing could be done to lower it.” Some surveys did not include
countermeasures to address the highest level threats, or included them
as optional because they were considered difficult to accomplish or very
costly. Some FPS officials believed that impact of loss addressed
continuance of the tenant agency’s mission at a specific facility, while
others believed it was the overall Agency’s mission regardless of the
facility. Despite the very nature of weapons of mass destruction, security
personnel tended to rate the impact of loss as moderate.

If the FSRM program is to be meaningful, FPS needs to address the
identified flaws to better ensure the safety and protection of employees
and facilities. We recommended that FPS revisit the terminology and
threat ratings with increased focus on major threats such as vehicle and
mail bombings, and ensure that security officials have sufficient guidance
to address emerging threats.

GSA management has made significant progress in addressing the
issues included in our prior audit reports and remains focused on efforts
to improve the safety and security of Federal employees and property.
We continue to work closely with management to assist them in better
achieving their goals.

Management Controls
Multiple management controls have been replaced, through reinvention
initiatives, by fewer and broader controls, making it essential that the
remaining controls be emphasized and consistently followed.
Streamlined processes have helped GSA achieve its goal of serving
customers quicker and more efficiently, however, the Agency is exposed
to the risk of abuse and mismanagement if program officials do not
ensure the faithful application of existing safeguards.

Travel and Purchase Card Controls
A key concern of ours, highlighted in previous semiannual reports and our
annual report to Congress outlining what we believe to be the major
challenges facing GSA, is the continued nonadherence to controls over
the use of travel and purchase cards. GSA has been aggressive in
empowering staff to look for ways to reduce administrative barriers and
promptly respond to customer needs. In simplifying existing rules,
operating procedures, and guidelines, management eliminated many of



                                                Office of Inspector General 5
                                      Management Challenges




                                      Management Controls (continued)

                                      the checks and balances previously part of the control system, and now
                                      relies on a few broad controls for reviewing and documenting
   Charge cards are                   transactions. In FY 2001, GSA employees used travel and purchase
     efficient, but                   cards for about $175 million of transactions. Currently, about
                                      10,000 travel cards and 3,500 purchase cards are issued within GSA.
   without effective                  Recently disclosed cases of widespread credit card abuse by employees
    controls create                   at several other Federal agencies underscores the significant financial
         risks.                       risk and loss of public confidence faced by all agencies who lack proper
                                      oversight of their employees’ use of charge cards to transact government
                                      business. (See “Fleet Credit Card Abuse,” page 16.)

                                      For travel and purchase cards, GSA relies on the approving official as a
                                      primary point of control. Yet reviews in four separate locations show that
                                      approving officials do not always review transaction detail to assure
                                      cardholder compliance with card usage and procurement guidelines. We
                                      saw situations where approving officials should have questioned the
                                      actions of the cardholders — for example: cardholders did not submit
                                      receipts for purchases; they did not reconcile monthly bank statements to
                                      purchase records; they let other people use their card; and they did not
                                      document the authorization to make certain purchases. One cardholder
                                      had 12-month purchases of over $9 million. The individual had complete
                                      control over the entire process including placing the order, determining
                                      where the goods or services should be sent, confirming receipt of such
                                      goods and services, and executing payment. Although we did not see
                                      evidence of questionable transactions, this lack of segregation of duties,
                                      compounded by the lack of oversight by the approving official, raised
                                      concerns regarding the potential misuse of the card and controls of the
                                      purchases.

                                      Although the Chief Financial Officer has taken steps to inform and
                                      reinforce with users established policies on the use of credit cards,
                                      oversight weaknesses continue. Collectively, the reports show a pattern
                                      indicating that a potential for a widespread control issue may exist. With
                                      the number of orders and dollars expended via credit cards anticipated to
                                      grow, we consider the need for improved oversight a major concern.
                                      Accordingly, we referred this issue to the Agency’s Management Control
                                      Oversight Committee to consider for inclusion as a control weakness in
                                      the Administrator’s Federal Managers’ Financial Integrity Act assurance
                                      statement.

                                      Use of the Occupancy Agreement
                                      The Public Buildings Service (PBS) has faced two major problems
                                      associated with billing customers for their occupancy of GSA-managed
                                      space. First, there was no complete, concise statement of the financial


6 Semiannual Report to the Congress
                   Management Challenges




                   Management Controls (continued)

                   aspects of the tenancy or of the responsibilities of both PBS and the
                   customer agency. Secondly, the financial and management data for
                   individual occupancies were frequently inaccurate or incomplete because
                   PBS did not standardize data collection. Consequently, the results
                   impaired both the accuracy of customer bills and PBS’s management
                   information used to control and make decisions about its 335 million
                   square feet of space inventory.
   Occupancy
                   To address these concerns, PBS developed the Occupancy Agreement,
Agreements need    intended as a complete, concise statement of the financial aspects of the
 to be uniformly   space agreement as well as the responsibilities of both PBS and the
   adopted to      customer agency. PBS intends to track completed agreements in its
                   information system as they are phased in. Agencies in leased space will
 improve space     enter into agreements as their leases expire, or they expand, alter space,
  management.      or move. All tenancies in government-owned space should have an
                   Occupancy Agreement in place by the end of FY 2006.

                   In November 2000, PBS’ information system showed over 27,000 space
                   assignment records nationwide, with about 4,300 associated Occupancy
                   Agreement numbers. During a recent OIG review, we selected a sample
                   of 1,700 rent billing records purportedly covered by an Occupancy
                   Agreement, to determine accuracy of the data. However, we could link
                   only 62 percent to an actual agreement, and, of these, only 40 percent
                   included tenant signatures. Further, existing agreements are not routinely
                   updated to reflect changes to the tenant space assignment. We did not
                   find any aspect of the PBS internal process to be dependent on the
                   agreement and saw no immediate repercussion from not completing one.
                   This provides little direct incentive for PBS operating personnel to press
                   for completion of the Occupancy Agreements, thus delaying improvement
                   in PBS’s overall billing and space management information processes.

                   The PBS Commissioner concurred with our recommendation that the
                   Agency take steps to encourage full and uniform adoption of the
                   Occupancy Agreement. PBS’s goal is to integrate the Occupancy
                   Agreement into the billing process so a customer’s bill cannot be
                   changed without a corresponding change to the agreement. However,
                   system limitations need to be addressed and PBS may have to consider
                   other means to ensure consistent information.

                   Procurement Activities
                   GSA provides Federal agencies with products and services valued in the
                   billions of dollars through various types of contracts. We conduct reviews
                   of these activities to ensure that the taxpayers’ interests are protected.




                                                                   Office of Inspector General 7
                                      Management Challenges




                                      Procurement Activities (continued)

                                      Desktop Program for Office Products
                                      In 1996, the Federal Supply Service (FSS) awarded contracts to office
                                      supply vendors for next day delivery of commercial office products, as
                                      well as products furnished by organizations affiliated with Federal Prison
                                      Industries (UNICOR), and the National Industries for the Blind (NIB) and
                                      the National Industries for the Severely Handicapped (NISH), both under
                                      the Javits-Wagner-O’Day (JWOD) Act. In 2000, FSS combined several
                                      Multiple Award Schedules and awarded 5-year contracts to five vendors
                                      for office products and services, and new products technology under the
                                      desktop program. In FY 2001, sales exceeded $141 million.

                                      When we first reviewed the program in 1999, we identified opportunities
                                      for FSS to improve upon it. At that time, the desktop vendors offered
                                      between 8,600 to 20,000 items for sale to government customers,
                                      although only 1,000 to 3,400 were included on the desktop contracts.
                                      Vendors were also required to sell about 1,000 JWOD products and block
  Supply customers                    the sale of equivalent commercial items. About 50 to 73 percent of the
    have benefited                    vendors’ sales to government customers were for non-contract items, at
    from program                      discounts that generally were lower than those offered on contract items.
  improvements but                    In our follow-up review this period, we noted improvements in the
   may not be fully                   program, mainly:
      supported.
                                      • at FSS’ urging, vendors significantly increased the number of
                                        commercial items under contract – now ranging from 7,000 to 11,500,
                                        and

                                      • JWOD has reduced the number of contract items to 661.

                                      Nevertheless, NIB and NISH believe vendors are not blocking sales of
                                      equivalent commercial items, consequently harming these organizations
                                      through lost sales. In addition, vendors continue to complain of increased
                                      costs for managing JWOD products with low demand.

                                      In our March 29, 2002 report, we recommended that, to address these
                                      issues, FSS needs to analyze product sales information. Vendors
                                      contacted indicated a willingness to provide FSS automated sales data.
                                      Analyzing the data will allow FSS to: (1) identify Government customers,
                                      the products they buy, and the prices they pay; and (2) compare sales of
                                      NIB, NISH, and UNICOR items to equivalent commercial items to show
                                      whether vendors are blocking equivalent product sales as required, or if




8 Semiannual Report to the Congress
                    Management Challenges




                    Procurement Activities (continued)

                    low demand products should be dropped from contracts. Since some
                    vendors continue to have significant non-contract sales, FSS may find
                    high-volume products that should be included in the contracts to help
                    customers obtain the best possible prices on frequently purchased items.

                    Lease Award Procedures
                    PBS obtains a substantial portion of its space to house tenant agencies
                    by leasing from the private sector. Because leasing activities are such an
                    important part of PBS operations ($3.5 billion annually), we periodically
                    review leasing activities throughout the regions.

                    Generally, we were concerned whether leasing personnel were using
                    sound procurement procedures when acquiring space for tenant
                    agencies, and if appropriate supervision and oversight were being
                    provided.

                    In a sample of leases examined in one region this period, we found
                    several leases awarded based on faulty data or where leasing personnel
                    had not followed appropriate procedures. In one case, errors in the
                    financial analysis supporting the lease resulted in the award to other than
                    the lowest priced offeror. In another case, leasing personnel allowed the
                    successful offeror to submit a lowered price after the deadline for the
    Leasing         submission of offers, and the financial analysis of the final offers was
 procedures are     incorrectly performed by the Contracting Officer. In both cases,
   sound but        supervision and oversight would likely have caught the errors.

 weaknesses in      In another action, a Contracting Officer with award authority limited to
 applying them      leases of $1 million or less per year exceeded her authority when she
                    awarded a lease for $3.5 million per year. Both the Contracting Officer
harm the results.
                    and her supervisor thought an unlimited warrant had been approved.
                    However, this approval did not occur until we raised the issue during our
                    review.

                    Finally, we found only limited evidence that physical security aspects of
                    prospective commercial properties was adequately evaluated during the
                    lease award process. We suggested that for determining the risk level of
                    space under consideration for lease, it would be advisable to obtain the
                    assistance of trained Federal Protective Service professionals to assure
                    that only adequately secured space is leased.




                                                                     Office of Inspector General 9
                                       Management Challenges




                                       Information Technology
                                       GSA is in the process of replacing a number of its old information
                                       systems, in keeping with technological advances. Since GSA has had
                                       difficulty sharing usable data between systems, many of the new IT
                                       projects are designed to go beyond automating current business
                                       functions and create real change in the way that GSA does business.
                                       However, development of new GSA systems has typically been
                                       characterized by schedule delays and cost overruns, the need for
                                       frequent redesign, and a prolonged period of time in development.

                                       Pegasys
                                       The National Electronic Accounting and Reporting (NEAR) system has
                                       been GSA’s financial management system for 26 years. In May 1998, the
                                       Chief Financial Officer (CFO) awarded a contract to purchase a
                                       commercial-off-the-shelf product to be named “Pegasys” to replace NEAR
                                       and to be used as the basis for the new Agency-wide accounting and
                                       financial management system. The project required extensive
                                       modification of the commercial product to meet the specific needs of
                                       GSA. The project commenced in October 1999 and was to be completed
                                       by October 2001. Management’s goals were to satisfy at least 90 percent
                                       of GSA’s core financial function requirements, reduce data entry by
                                       50 percent, reduce full-time employees by 18 percent and, based on
                                       industry standards, reduce annual operating costs by 50 percent.

                                       The initial phase of Pegasys was designed to replace the old accounting
                                       system and implement new funds management capabilities within GSA
                                       that were not previously available in NEAR. In earlier semiannual reports
   Redefined plans                     we stated that, while the Agency anticipated the need for significant
        for new                        modification to the commercial product, it underestimated the magnitude
                                       and complexity of the needed changes. This significantly impacted the
      accounting                       completion schedule and resulted in substantial cost increases. Both
      systems are                      public and private sector advisors have analyzed alternatives and
     headed in the                     provided recommended approaches for maximizing Pegasys’
                                       effectiveness and expediting the elimination of NEAR operations.
    right direction.
                                       In FY 2001, management prioritized its goals and rescoped the work into
                                       phases in an effort to bring the project under a manageable schedule and
                                       cost control plan. It no longer expects to completely replace NEAR in the
                                       foreseeable future. Currently, the objective is to develop the core
                                       accounting system functions to provide accounts payable, disbursement,
                                       and general ledger processing by October 2002. The Agency will
                                       continue to maintain NEAR for accounts receivable, asset management,
                                       and cost distribution functions until these can be added to the
                                       reengineering efforts.




10 Semiannual Report to the Congress
Management Challenges




Information Technology (continued)

We agree with the direction the Pegasys project is taking. However,
more planning and project decisions need to be accomplished. In our
most recent oversight report, we offered our view that additional work
steps are needed to ensure successful implementation. Most significant
of these tasks is the need to develop an enterprise-wide financial system
architecture and establish a plan to integrate Pegasys with the Agency’s
many existing financially-related systems. Without these critical
measures, full system integration is uncertain.

Finally, the CFO needs to define its long-term plans for NEAR and
Pegasys to fully support mission-based operations. Long-term plans will
enable the CFO to have a clear understanding of the technology being
used, decrease the risk of developing systems that may not meet GSA’s
future needs, and form the basis for migrating functions to a single
system.




                                               Office of Inspector General 11
                              Promoting and Protecting Integrity




                                       GSA is responsible for providing working space for almost one million
                                       Federal employees. The Agency also manages the transfer and disposal
                                       of excess and surplus real and personal property and operates a
                                       governmentwide service and supply system. To meet the needs of
                                       customer agencies, GSA contracts for billions of dollars worth of
                                       equipment, supplies, materials, and services each year. We conduct
                                       reviews and investigations in all these areas to ensure the integrity of the
                                       Agency’s financial statements, programs, and operations and that the
                                       taxpayer’s interests are protected. In addition to detecting problems in
                                       these GSA programs and operations, the OIG is responsible for initiating
                                       actions to prevent fraud, waste, and abuse and to promote economy and
                                       efficiency.

                                       Significant Criminal and Civil Actions
                                       GSA Construction Contractor Convicted; Pays $694,322 Fine
                                       On March 19, 2002, AMEC Construction Management, Inc., formerly
                                       known as Morse Diesel International, Inc. (AMEC/MDI), a multinational
                                       provider of construction services, was convicted on a guilty plea of one
                                       count of Major Fraud Against the United States in connection with its GSA
                                       contract for the seismic and electrical upgrade of the United States
                                       Customs House in San Francisco, California. AMEC/MDI was assessed
                                       and has paid a $694,322 fine.

                                       An OIG investigation of AMEC/MDI found that MDI had submitted a false
                                       invoice to GSA for payment on the San Francisco Customs House. The
                                       criminal fraud involved providing GSA with an invoice for a bond premium
                                       which was falsely stamped “Paid,” when MDI had not, in fact, at that time
                                       paid the premium. This fraudulent submission resulted in an increase of
                                       the overall contract price to GSA. While similar conduct involving the
                                       U.S. Courthouse and Federal Building in Sacramento, California was also
                                       alleged during the investigation, it was not included in the plea agreement
                                       reached by the Government and AMEC/MDI. A related civil fraud case
                                       against AMEC/MDI is currently being litigated in the U.S. Court of Federal
                                       Claims by the Department of Justice. That case includes fraud
                                       allegations against AMEC/MDI involving its GSA construction contracts for
                                       the Sacramento Federal Building, the San Francisco Customs House,
                                       and the Thomas F. Eagleton Courthouse in St. Louis, Missouri. In
                                       addition to allegations regarding false invoices for performance and
                                       payment bonds and violations of the Anti-Kickback Act involving a
                                       commission-splitting arrangement between AMEC/MDI’s bond broker and
                                       AMEC/MDI’s parent company AMEC, plc on all three projects, the
                                       Government’s complaint also alleges fraudulent installation of defective
                                       doorframes and late payments to subcontractors on the Eagleton
                                       Courthouse contract.




12 Semiannual Report to the Congress
Promoting and Protecting Integrity




     On February 20, 2002, the GSA Office of Acquisition Policy proposed
     AMEC and AMEC, plc for debarment, effectively suspending the
     companies from receiving new Federal contracts pending a final
     determination on the debarment action period. The proposed debarment
     was based on AMEC/MDI’s guilty plea in connection with the San
     Francisco Customs House, in combination with the company’s previous
     guilty plea, dated December 12, 2000, for making a false claim against
     the Government by submitting a false bond invoice relating to the St.
     Louis contract, and the alleged violations of the Anti-Kickback Act.

     Contractors Ordered to Pay $6 Million for Conspiracy to Defraud the
     Government
     A joint investigation was initiated when information was received that
     Dynamics Research Corporation (DRC) was paying kickbacks through
     KKP Corporation (KKP) to two executives of DRC. We conducted the
     investigation along with the Defense Criminal Investigative Service, the
     Air Force Office of Special Investigations, the Internal Revenue Service,
     the Federal Bureau of Investigation, and the Defense Contract Audit
     Agency.

     The investigation disclosed that two executives of DRC assisted KKP in
     obtaining a Small Business Administration certification, which allowed
     KKP to receive government contracts outside the usual competitive
     bidding channels. One of the DRC executives used his position as
     procurement manager to arrange for the Air Force to purchase millions of
     dollars worth of computer storage devices and memory units from KKP,
     acting as a government reseller, through GSA. This arrangement
     facilitated a multi-component scheme which enabled the two DRC
     employees and the president of KKP to substitute cheaper, clone memory
     in the computer storage devices at a mark-up of several hundred percent
     without the knowledge or consent of the Air Force. Over a 2-year period,
     they netted in excess of $7 million in profits.

     On February 22, 2002, the president of KKP was sentenced in U.S.
     District Court for conspiracy to defraud the government, wire fraud, and
     conspiracy to obstruct justice. He was sentenced to 3 years probation,
     ordered to pay $350,000 in restitution, and fined $25,000. KKP was
     sentenced to 2 years probation and ordered to pay restitution in the
     amount of $3,745,302.

     On March 8, 2002, the two DRC executives were sentenced in U.S.
     District Court for conspiracy to defraud the government, wire fraud, theft
     of government property, and conspiracy to obstruct justice. One
     executive was given 60 months incarceration, 24 months supervised
     release, and ordered to pay restitution of $3.2 million. The other




                                                     Office of Inspector General 13
                              Promoting and Protecting Integrity




                                       executive was sentenced to 20 months incarceration, 24 months
                                       supervised release, and ordered to pay restitution of $2.8 million. Both
                                       executives have subsequently been terminated from DRC.

                                       Forest Service Employee Sentenced for Stealing Government
                                       Property Valued at $9 Million
                                       We initiated an investigation when it was reported to the OIG that a U.S.
                                       Department of Agriculture Forest Service radio technician was obtaining
                                       surplus government property from the GSA Federal Excess Personal
                                       Property Disposal Program for his own benefit. The investigation
                                       disclosed that over a 10-year period the employee stole radio
                                       communications gear and surplus equipment valued at $9 million. The
                                       employee used some of the equipment to support his radio hobby, sold
                                       about $4,000 worth of equipment, and gave equipment to unauthorized
                                       users.

                                       On January 2, 2002, the radio technician pled guilty to converting
                                       property that he obtained for his own benefit. He subsequently resigned
                                       his position with the Forest Service. On March 19, 2002, the technician
                                       was sentenced in U.S. District Court to 18 months incarceration, 3 years
                                       probation, ordered to pay $4,000 in restitution, and fined $3,000 for fraud
                                       against the government.

                                       Telecommunications Fraud
                                       The OIG is a principal participant in the New York Electronic Crimes Task
                                       Force (NYECTF). NYECTF members include the Secret Service,
                                       Department of Defense, Department of Justice, New York City Police, and
                                       telecommunications industry representatives. The purpose of the task
                                       force is to investigate telecommunications fraud, primarily involving
                                       Federal facilities within the New York metropolitan area. GSA is the
                                       principal provider of telecommunications services for these facilities. The
                                       OIG is a permanent member of the NYECTF and frequently is the lead
                                       agency in the investigations.

                                       The task force investigates several types of telecommunications fraud
                                       including cloned cellular telephones, stolen calling card numbers, and
                                       intrusions of Private Branch Exchange (PBX) telephone switches.
                                       Cellular telephones are cloned through the use of electronic devices that
                                       capture the electronic signatures of the telephones. These signatures are
                                       programmed into other cellular telephones, which are then used to
                                       illegally make unauthorized telephone calls. Calling card numbers are
                                       stolen either through the use of electronic devices, that intercept the
                                       caller’s use of the number, or by “shoulder surfing,” which is the simple
                                       act of watching someone dial in the card numbers. PBXs, or telephone
                                       switches, are usually breached through their voice mail systems.



14 Semiannual Report to the Congress
Promoting and Protecting Integrity




     Individuals may use their computers to locate and break into mailboxes
     that can be used to make outgoing telephone calls. In all of these
     scenarios, access is often sold to other individuals who make telephone
     calls around the world until the misuse is detected.

     This reporting period, we had four criminal sentences resulting from the
     telecommunications fraud investigations.

     In two separate investigations, the individuals pled guilty when it was
     disclosed that they had used their telephone lines to illegally access the
     PBX of government agencies. In the first case, the individual was
     ordered to pay restitution of $686,803, and sentenced to 46 months
     imprisonment and 3 years supervised probation. In the second case, the
     individual was sentenced to 21 months imprisonment, 2 years probation,
     and ordered to pay $460,267 in restitution.

     Another investigation found that an individual sold stolen AT&T and Sprint
     FTS 2001 telephone calling card numbers. In this instance, the individual
     was sentenced to 24 months incarceration, 3 years supervisory release,
     and ordered to pay $135,405 in restitution.

     In the fourth case, the individual was sentenced to 5 months
     incarceration, 3 years probation, and ordered to pay $78,618 in
     restitution. A number of Sprint FTS 2000 calling card numbers were
     compromised when this individual stole these numbers from unsuspecting
     travelers who were placing calls from public pay phones at major airports.

     Owner of Automobile Repair Shop Sentenced for False Claims
     A joint investigation by GSA and the Defense Criminal Investigative
     Service (DCIS) was initiated when a GSA employee reported that an
     owner of an automobile repair shop was submitting suspicious invoices
     for repair work. It was alleged that the owner established multiple vendor
     account numbers with GSA and then forged the names of government
     officials authorizing and accepting work performed on government
     vehicles.

     The owner used various vendor numbers and submitted invoices for
     unnecessary repairs and for services for which he had already received
     payment. Further, the owner submitted multiple invoices for the same
     service on the same vehicle and also submitted invoices for services that
     were not rendered.

     On October 4, 2001, the owner was sentenced in U.S. District Court to
     30 days in jail, 5 months home detention, 3 years supervised probation,
     200 hours community service, and was ordered to pay $40,000 in
     restitution for making false claims to the government.



                                                    Office of Inspector General 15
                              Promoting and Protecting Integrity




                                       Fleet Credit Card Abuse
                                       During this reporting period, two OIG investigations resulted in the
                                       conviction of two government employees for converting public funds to
                                       personal use. In both instances, the investigations were initiated when
                                       GSA management informed the OIG that questionable charges had been
                                       made on GSA issued fleet credit cards.

                                       In one case, a Social Security Administration employee was indicted on
                                       charges of converting public funds based on a scheme to purchase
                                       gasoline for other people’s vehicles using fleet cards. She retired from
                                       her position and subsequently pled guilty in U.S. District Court. She was
                                       sentenced on October 1, 2001 to 3 years probation and ordered to pay
                                       restitution of $5,472. In the other case, a U.S. Army employee also pled
                                       guilty in U.S. District Court based on his use of a fleet card to make
                                       almost $10,000 in unauthorized purchases of gasoline. The employee
                                       used the card to pre-pay for fuel and then obtained cash refunds for
                                       purchases that were overpaid. He resigned from his position and was
                                       sentenced on November 26, 2001 to 5 years probation and ordered to
                                       pay restitution of $9,854.

                                       Company Debarred for Submitting False Statement to GSA
                                       A GSA contract specialist reported to the OIG that the president of Trident
                                       Maintenance, Inc. submitted a false statement to GSA. He had submitted
                                       a false certification of insurance in support of a GSA janitorial contract.
                                       On December 11, 2001, the company and its president entered into a
                                       pretrial diversion agreement to perform 12 months probation and
                                       reimburse GSA for re-procurement contract costs totaling $7,200. Based
                                       on the OIG’s recommendation, Trident and its president were debarred.

                                       GSA Employee Convicted of Fraud and Bribery Conspiracy
                                       A joint investigation by GSA, the Internal Revenue Service, and the
                                       Federal Bureau of Investigation was initiated when it was alleged that a
                                       GSA employee was receiving kickbacks from a GSA contractor. The
                                       employee conspired with several government contractors and a private
                                       accountant to submit false claims totaling over $350,000 on small
                                       purchase repair and maintenance contracts for a Federal center in
                                       Maryland. In exchange, the contractors provided kickbacks to the
                                       employee. The accountant had assisted in incorporating companies who
                                       submitted false claims to GSA for work not performed.

                                       Four contractors had previously pled guilty to charges of conspiring to
                                       submit false claims to the government. Their testimony aided in the
                                       November 21, 2001 conviction of the GSA employee and the private
                                       accountant in U.S. District Court on charges of bribery and conspiracy to
                                       defraud the government. Subsequently, the employee was terminated



16 Semiannual Report to the Congress
Promoting and Protecting Integrity




     from his position, sentenced to 7 years imprisonment, and ordered to pay
     $418,536 in restitution. In addition, one of the four contractors was
     sentenced to 22 months imprisonment and ordered to pay $91,044 in
     restitution.

     Furniture Contractor Pays $575,000 to Settle Potential False Claims
     Act Liability
     Gaylord Brothers (Gaylord), a division of The Croydon Company, Inc.,
     paid a total of $575,000 to settle its potential liability under the civil False
     Claims Act. The Government alleged that, in the course of negotiating
     two separate Multiple Award Schedule (MAS) contracts for the supply of
     library furniture, Gaylord misrepresented the nature and extent of the
     discounts that it gave to its commercial customers. Specifically, GSA had
     negotiated contracts with Gaylord in 1990 that provided that Federal
     agencies purchasing under the contracts would receive discounts of
     16 percent. The OIG audit and investigation found, however, that
     Gaylord had granted discounts to state and local governments and other
     customers of up to 61 percent, contrary to what it represented to GSA.
     As such, GSA’s Federal customers paid more than they should have for
     Gaylord’s products.

     Integrity Awareness
     The OIG presents Integrity Awareness Briefings nationwide to educate
     GSA employees on their responsibilities for the prevention of fraud and
     abuse and to reinforce employees’ roles in helping to ensure the integrity
     of Agency operations.

     This period, we presented 16 briefings attended by 219 regional
     employees. These briefings explain the statutory mission of the OIG and
     the methods available for reporting suspected instances of wrongdoing.
     In addition, through case studies, the briefings make GSA employees
     aware of actual instances of fraud in GSA and other Federal agencies
     and thus help to prevent their recurrence. GSA employees are the first
     line of defense against fraud, abuse, and mismanagement. They are a
     valuable source of successful investigative information.

     Hotline
     The OIG Hotline provides an avenue for employees and other concerned
     citizens to report suspected wrongdoing. Hotline posters located in GSA-
     controlled buildings encourage employees to use the Hotline. We also
     developed and use our FraudNet Hotline platform to allow Internet
     reporting of suspected wrongdoing. During this reporting period, we
     received 913 Hotline reports. Of these, 124 complaints warranted further
     GSA action, 13 warranted other agency action, and 776 did not warrant
     action.



                                                        Office of Inspector General 17
                              Promoting and Protecting Integrity




                                       Significant Preaward and Other Audits
                                       The OIG’s preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
                                       nature of preaward audits distinguishes them from other audits. This
                                       program provides vital and current information to contracting officers,
                                       enabling them to significantly improve the Government’s negotiating
                                       position and to realize millions of dollars in savings on negotiated
                                       contracts. This period, the OIG performed preaward audits of
                                       27 contracts with an estimated value of over $1.6 billion. The audit
                                       reports contained over $82 million in financial recommendations.

                                       Three of the more significant Multiple Award Schedule contracts we
                                       audited had projected governmentwide sales totaling $1.4 billion. The
                                       audit findings recommended that $44.1 million in funds be put to better
                                       use. The audits disclosed that these vendors offered prices to GSA that
                                       were not as favorable as the prices other customers receive from these
                                       vendors.

                                       We also audited several claims for increased costs. In four of the more
                                       significant audits, we found that the entire amounts claimed, totaling
                                       $28.5 million, were not supported. In each audit, the contractor could not
                                       demonstrate that the Government was responsible for the excess costs
                                       claimed. In fact, we found documentation that ascribed the delays to
                                       other members of the construction team.

                                       Financial Managers’ Financial Integrity Act Review
                                       The Federal Managers’ Financial Integrity Act (FMFIA), Section 2,
                                       requires GSA management to provide assurance to the President and the
                                       Congress that Agency resources are protected from fraud, waste,
                                       mismanagement, and misappropriation.

                                       Each year, we review the Agency’s FMFIA process to assess the
                                       completeness of management’s reporting of known significant
                                       weaknesses and deficiencies. This year, we advised GSA’s Management
                                       Control Oversight Council (MCOC) of three issues that had not been
                                       reported in the management assessment process. The issues we believe
                                       should be considered by the MCOC for inclusion in the Administrator’s
                                       assurance statement are: background checks of contract employees,
                                       contract administration activities, and use of credit cards. We also
                                       advised the MCOC of our agreement with the Chief Financial Officer’s
                                       (CFO) disclosure of financial management systems’ non-conformances in
                                       the Agency’s system security and system control processes as required
                                       by FMFIA, Section 4.

                                       In several audit reports issued between FY 1999 and FY 2001, we noted
                                       recurring problems related to contract service personnel not undergoing


18 Semiannual Report to the Congress
Promoting and Protecting Integrity




     required background checks. In a follow-up review on previously
     reported deficiencies regarding background checks for childcare
     employees, we found improvement in the number of checks made, but a
     need to ensure a more timely completion of these checks remains.

     We have issued several reports detailing control weaknesses in
     administering service and construction contracts related to facility
     operations. We advised management of repair, alteration, and renovation
     construction projects that exceeded their completion dates by more than
     30 days and of the need to establish a quality control program to ensure
     reports are completed for preventative building maintenance and to
     monitor contractor performance. We also advised management of the
     need to inspect completed construction work and to have an on-site
     supervisor present at all buildings undergoing major construction.

     The OIG has issued FMFIA reports in prior periods on control
     weaknesses over payments related to credit card purchases. Even
     though the CFO has taken steps to inform users of established policies,
     we have once again found instances where credit card policies are not
     being followed. We reported cardholders not maintaining required logs
     and supporting receipts of purchases, inappropriate use of purchase
     cards for travel expenses, and improper payments of sales taxes. We
     also advised management that cardholders routinely bought office
     products at prices higher than those offered through GSA’s own supply
     contracts, and that approving officials were not appropriately assigned to
     approve cardholders’ transactions.

     In our FMFIA, Section 4 review, we determined that the CFO had
     completely and accurately disclosed financial management systems’
     nonconformances regarding both the need to improve entity-wide system
     security management and oversight, and the need to improve system
     development, implementation, and change controls processes.

     Implementation Reviews
     Responsibility for implementing appropriate corrective action as the result
     of audit report recommendations rests with Agency management. The
     OIG performs, on a selective basis, independent reviews of the
     implementation actions to ensure that management is carrying out this
     responsibility according to established milestones. This period, the OIG
     performed one implementation review of the recommendation in the 1997
     Limited Review of IMPAC Purchase Card Usage. We found that, while
     management’s corrective actions did not fully remedy the reported
     conditions, the matter became moot when management migrated to a
     new system for processing purchase card transactions. A follow-up
     review will be planned to test the new system in the future.




                                                    Office of Inspector General 19
                              Promoting and Protecting Integrity




                                       Financial Statement Audit and Related Reviews
                                       Beginning with the passage of the Chief Financial Officers Act of 1990,
                                       the Congress, through legislation, and the Office of Management and
                                       Budget, through management circulars and bulletins, have established a
                                       framework of financial audits and reviews designed to foster overall
                                       enhancement of the Federal Government’s financial management and
                                       reporting practices. Summarized below are the results of financial and
                                       financially-related reviews that our office completed this period.

                                       Financial Statement Audit for FY 2001
                                       This audit, as in years past, was performed by an independent public
                                       accounting (IPA) firm, with oversight, support work and guidance provided
                                       by the OIG.

                                       For the 14th consecutive year, the GSA financial statements received an
    For the 14th                       unqualified auditor opinion. This assessment means there is reasonable
                                       assurance that the Agency’s financial position is fairly presented and free
  consecutive year,                    from material misstatement. In a related review, the IPA found no
   GSA earned an                       reportable instances of noncompliance with laws and regulations.
     unqualified
                                       The auditors did suggest that GSA needs to do additional work to
      financial                        improve financial information and operations in the following four areas:
 statement opinion.
                                       • The need to strengthen entity-wide system security management.

                                       • The need to continue to improve controls over GSA systems
                                         development and implementation.

                                       • The need to strengthen controls over the integrity of rent data.

                                       • The need to better control the transfer of completed construction
                                         projects out of the work in process accounts in a more timely manner.

                                       The Agency has developed plans and is taking steps to address these
                                       issues.

                                       Review of Payroll Operations
                                       As part of the financial audit, the OIG reviewed GSA’s internal controls
                                       over the payroll function, which is performed at the National Payroll
                                       Center (NPC) located within the Heartland Finance Center. NPC uses
                                       the automated Payroll Accounting and Reporting System to process
                                       payroll for GSA’s employees and a number of independent agencies and
                                       presidential commissions. We reported that the internal controls over the
                                       payroll functions appear to be operating effectively and efficiently to meet
                                       control objectives.



20 Semiannual Report to the Congress
                  Promoting and Protecting Integrity




                       Testing of the Performance Measure System
                       The OIG conducted the portion of the Financial Statements Audit related
                       to the design and operation of the system of controls over the
                       performance measures reported in GSA’s FY 2001 Annual Report.
                       Accordingly, we obtained an understanding of the design of the significant
                       controls relating to the existence and completeness of data supporting
                       individual performance measures, and determined whether they have
                       been in operation, as required by the Office of Management and Budget
                       (OMB) Bulletin No. 01-02.

                       In our FY 2001 audit, we reviewed the CFO’s analysis of the test review
                       that was conducted of PBS’s performance data. In our last audit, we had
                       identified a reportable condition wherein Agency managers needed to
                       affirm the existence and completeness of the performance data and fully
                       implement accountability requirements. In response, the CFO developed
                       an action plan to improve the process Agency managers would use to
                       assess controls over performance data. In the test review of PBS’s
                       performance measures, the CFO found that a number of data entry
                       controls had been enhanced and determined that PBS had adequate
                       controls and procedures over the performance data. PBS, however, is
                       further enhancing the process to provide additional controls to the
                       systems. We reported that the CFO needs to establish a plan to
                       implement the process in other Services and Staff Offices before the
                       reportable condition is resolved.

                       Evaluation of Specific Performance Measures
                       The OIG, as part of the financial statement audit process, performs an
                       assessment of internal controls over the existence and completeness of
    Agency             data supporting individual performance measures.
 performance
                       Using the standards for these reviews established in OMB Bulletin
measure efforts        No. 01-02, we assessed the defined attributes for six performance
show signs of          measures from PBS, FSS, and FTS. We found the risk levels for each of
                       these measures to be no greater than moderate, and most were found to
  improving.
                       be low risk with reasonable controls in place.

                       Results Act Testing
                       Finally, in our review of GSA’s FY 2000 Annual Performance Report, we
                       reported that GSA generally complied with the performance reporting
                       requirements of the Government Performance and Results Act and OMB
                       Circular A-11. We found, however, that the CFO could enhance the
                       report preparation process by providing formal guidance to the Services
                       and Staff Offices regarding the content and format of their respective
                       sections of the Annual Performance Report. This would help make the
                       report more consistent.



                                                                      Office of Inspector General 21
                               Governmentwide Policy Activities




                                       On a continuing basis, we provide advice and assistance on
                                       governmentwide policy matters to the Agency, as well as to other Federal
                                       agencies and Committees of Congress, in many different forums,
                                       including particularly the President’s Council on Integrity and Efficiency
                                       (PCIE). The PCIE was established by Executive Order to address
                                       governmentwide integrity, economy, and efficiency issues. In addition, as
                                       required by the Inspector General Act of 1978, we review existing and
                                       proposed legislation and regulations to determine their effect on the
                                       economy and efficiency of the Agency’s programs and operations and on
                                       the prevention and detection of fraud and mismanagement. Because of
                                       the central management role of the Agency in shaping governmentwide
                                       policies and programs, most of the legislation and regulations reviewed
                                       invariably impact governmentwide issues in areas such as procurement,
                                       travel, and government management and information technology
                                       systems.

                                       This period, we provided advice and assistance to OMB and to the House
                                       Committee on Government Reform on various procurement policy issues,
                                       particularly in the area of services contracting. In addition, we
                                       participated on a number of interagency committees and working groups
                                       that deal with cross-cutting and governmentwide issues:

Interagency                            • The PCIE Information Technology (IT) Roundtable discusses various IT
                                         audit activities throughout the Inspector General community.
Committees and
Working Groups                         • Our TeamMate Technical Support Group participates in the TeamMate
                                         Federal Users Group and the PricewaterhouseCoopers TeamMate
                                         Users Group to discuss concerns or new challenges facing TeamMate
                                         users. TeamMate is an automated audit workpaper management
                                         system that should make the audit process more efficient.

                                       • The Inspector General serves on the Human Resources and
                                         Legislation committees of the PCIE. The Human Resources
                                         Committee fosters educational opportunities for members of the
                                         Inspector General community and assists in ensuring the professional
                                         development of OIG personnel. The Legislation Committee develops,
                                         coordinates, and represents to Congress official PCIE positions on
                                         particular legislative issues.

                                       • Our Assistant Inspector General for Auditing represents all civilian
                                         government agencies on the Cost Accounting Standards Board, an
                                         independent board within OMB’s Office of Federal Procurement Policy,
                                         which promulgates, amends, and revises Cost Accounting Standards
                                         designed to achieve uniformity and consistency in cost accounting
                                         practices by individual government contractors.




22 Semiannual Report to the Congress
              Governmentwide Policy Activities




                  • Our Assistant Inspector General for Investigations serves as the Chair
                    of the Assistant Inspectors General for Investigations Subcommittee.
                    This subcommittee reports to the PCIE Investigative Committee. The
                    subcommittee deals with investigative issues that affect all OIG Offices
                    of Investigations, such as statutory law enforcement, peer review, and
                    coordinated assistance to the Department of Justice.

Legislation       During this period, the OIG reviewed 206 legislative matters and
                  20 proposed regulations and directives. The OIG addressed the following
                  legislative item:

                  • Services Acquisition Reform Act, S. 3832. We provided comments to
                    the House Government Reform Committee, Subcommittee on
                    Technology and Procurement Policy, on S. 3832, the Services
                    Acquisition Reform Act. Generally, we endorsed the bill’s focus on
                    increasing the efficiency of service contracting, but we expressed
                    concerns regarding a number of the bill’s provisions that expanded
                    commercial items procurement authorities for services procurements.
                    Specifically, we noted that the bill’s expansion of the definition of
                    commercial items to include services — both by eliminating the current
                    substantial quantities requirement and by allowing any item or service
                    sold by a commercial business entity to qualify as a commercial
                    service — would be problematic; the changes eliminate the current
                    pricing safeguards that ensure that such services are bought and sold
                    competitively in the commercial marketplace. In our view, instead of
                    expanding the universe of services that can be acquired using
                    streamlined authorities, the bill should focus on addressing current
                    pricing and competition-related problems in the services contracting
                    area.

                    We also expressed concerns about the bill’s apparent sanctioning,
                    through a proposal to implement the Federal Acquisition Regulation, of
                    the use of time-and-materials contracts in appropriate circumstances
                    for services contracts. We noted that such contracts are inherently
                    risky for the government, and that our audit experience has indicated
                    certain recurring problems under such contracts, including situations
                    where contractors have not actually expended the number of hours for
                    which they have billed the government or contractors who have
                    employed workers on government jobs who do not have the contract-
                    specified qualifications. We suggested that any regulatory coverage
                    expanding the use of such contracts also specifically include
                    accompanying safeguards such as audit authority or payment
                    protections.




                                                                 Office of Inspector General 23
                               Governmentwide Policy Activities




Regulations                            The OIG also provided comments on the following proposed regulations:

                                       • Acquisition Letter on Pricing Multiple Award Schedule Services. Our
                                         Office provided comments on a draft Federal Supply Service (FSS)
                                         Acquisition Letter relating to pricing services under Multiple Award
                                         Schedule (MAS) contracts. This was the second time we reviewed and
                                         provided FSS with comments on this Acquisition Letter. We noted that
                                         proposed coverage in the Acquisition Letter, which generally stated that
                                         contracting officers (COs) have the authority to ask for additional
                                         proposal information, should be modified to provide specifically that the
                                         additional information can include cost information other than certified
                                         cost or pricing data. We also noted that the Acquisition Letter should
                                         be revised to provide that all proposal information be current, accurate
                                         and complete, and that coverage regarding audit assistance for COs
                                         seeking to price service contracts be emphasized and amplified.
                                         Finally, we suggested adding language to the discussion of basing
                                         MAS pricing on other Federal Government contracts that clarified that
                                         this method of price analysis is only valid if the other Federal
                                         Government contract is comparable to the MAS vehicle; we cautioned
                                         that such other Federal pricing should be closely examined.

                                       • Acquisition Letter on Economic Price Adjustments for Acquisitions that
                                         are not Based on Commercial Catalogs or List Prices. We provided
                                         comments to FSS on a draft Acquisition Letter providing guidance to
                                         COs on economic price adjustment (EPA) mechanisms for contracts.
                                         We expressed our general concerns that the guidance appeared to be
                                         making EPAs an automatic mechanism, with little or no individualized
                                         analysis required on the part of FSS contracting personnel, and
                                         recommended that COs require vendors seeking EPAs to provide
                                         substantiation that the increase is being passed on to all customers
                                         and is supported by an actual increase in the cost of its operations.
                                         With respect to either the market indices or fixed-price methods used
                                         to calculate EPAs, we generally noted that the Acquisition Letter’s
                                         coverage should emphasize the need for such adjustments to be made
                                         only if they reflect the vendor’s commercial pricing.

                                       • Acquisition Letter Governing Electronic Modifications for MAS
                                         Contracts. We provided comments to FSS on a draft Acquisition Letter
                                         proposing to implement electronic modifications for MAS contracts.
                                         Generally, we agreed that processing routine contract modifications
                                         electronically would be appropriate and would reduce the
                                         administrative burden on COs. However, we expressed concerns
                                         regarding electronic processing of more substantive modifications,
                                         including those involving the addition of significant products, where
                                         price negotiations would be appropriate. We also emphasized the
                                         importance of establishing a workable and reliable archive system to
                                         store and track all modifications.

24 Semiannual Report to the Congress
Governmentwide Policy Activities




    • Notice of Proposed Rulemaking Regarding Nonprocurement
      Suspension and Debarment. We provided comments to an
      interagency group on a notice of proposed rulemaking that would make
      a variety of changes to the nonprocurement common rule for
      suspension and debarment. We expressed our concerns regarding the
      notice’s proposed elimination of a certification required by potential
      participants in government grant or other programs. Such participants
      are required to certify that they are not currently excluded or
      disqualified from participating in such programs. We noted that it is
      imperative that entities that participate in such programs, including
      GSA’s surplus property donation program, have the requisite integrity,
      and that we felt the certification ensured that Agency program officials
      would have accurate, updated information as to whether a particular
      entity has been deemed ineligible. We also noted that such a
      certification, and the information underlying it, would not be
      burdensome for an entity to provide. Generally, we urged retention of
      the certification.




                                                   Office of Inspector General 25
                               Partnering with GSA Management




                                       Professional Assistance Services
                                       We continued to offer a variety of professional services to GSA
                                       management, including consulting services and advisory reviews. We
                                       also continued our participation on Agency improvement task forces,
                                       committees, and working groups. Our efforts help the Agency become
                                       more efficient and effective by providing management with timely
                                       information, often at its request, to improve decision-making, program
                                       outputs, and mission accomplishment. These services are provided in
                                       addition to our more traditional services.

                                       Consulting Services. These OIG efforts are initiated by Agency officials
                                       and are designed to provide management with quick responses to
                                       specific program concerns. Requesting officials both define and limit the
                                       scope of the consulting project. Information objectively developed by the
                                       OIG is provided for the interpretation and discretionary use of the
                                       requesting official in a partnering relationship with management.
                                       Consulting service products contain observations and alternatives for
                                       consideration in lieu of formal audit recommendations. One recent effort
                                       is highlighted below:

                                       • Need for Detailed Telecommunications Billings. With recent
                                         changes in Federal Telecommunications laws and regulations,
                                         agencies are no longer required to review call detail records or to
  Telecommunications
                                         certify payment for long distance calls. Nevertheless, agencies
    billing detail still                 continue to request call detail records, which concerned FTS
      important to                       management. In our discussions with customer agency
                                         representatives, they conveyed several reasons for wanting to continue
       customers.
                                         receiving this data. Customers want the ability to perform ad hoc
                                         queries to respond to specific requests related to phone usage, and
                                         find record analysis helps them efficiently manage their
                                         telecommunication resources. Accordingly, FTS management should
                                         retain detailed billing from the vendors as a contract requirement.

                                       Advisory Reviews. These OIG services are designed to develop
                                       information useful to Agency managers who are responsible for making
                                       decisions and initiating program improvements. Typically, we identify
                                       benchmarks and analyze best practices used in both private industry and
                                       government agencies to determine if GSA is delivering comparable
                                       products and services as effectively as other provider entities. Advisory
                                       reviews are usually initiated by the OIG, although management may
                                       request them as well. Our reports provide observations and conclusions,
                                       without recommending corrective actions. The following highlights two
                                       such reviews accomplished during this period:




26 Semiannual Report to the Congress
                   Partnering with GSA Management




                       • PBS Purchase Order Rejections. We examined the processing of
                         PBS purchasing orders by the Office of Finance to determine if there
                         were steps that could be taken to reduce the high volumes of orders
    Identifying the      that are rejected and require rework before processing. In a 6-month
 source and causes       period, 10,000 orders were rejected.
for error can reduce
                         The Office of Finance could substantially lower future rejection rates if
  future workloads.      it employed data analysis techniques to pinpoint the prime sources and
                         underlying causes for rejected orders. For example, in our study of the
                         10,000 rejected orders, we found that 35 percent came from only 9 of
                         PBS’s 753 organizational units. We also noted that the Office of
                         Finance did not analyze errors made within its operations to determine
                         if a root cause could be found and eliminated.

                         In our January 24, 2002 report, we concluded that data sorting and
                         analysis might identify problem areas and indicate rejection trends.
                         Finance also needs to track keying errors to determine if the keying
                         contractor is exceeding its error rate threshold.

                       • Real and Personal Property at Closing Supply Facilities. GSA
                         consolidated its supply distribution operations during calendar year
                         2001, closing four forward supply points and two distribution centers.
                         Our assignment was to assess whether real and personal property was
                         adequately accounted for, secured, and properly transferred. At the
                         time of our review, inventory stock and equipment in the closing
                         facilities was valued at over $13 million.

                         We used the General Accounting Office’s Best Practices Guide on
                         conducting inventory counts as our guide for this assessment. GSA
                         put together an experienced and knowledgeable closure team to
                         manage the process. We found that overall, inventory stock and
                         equipment were secure and accounted for properly. The closure
                         activities did find additional inventory items that had to be identified
                         and recorded, taking additional time. Overall, closure operation was
                         considered successful. We offered a few suggestions for
                         strengthening inventory management.

                         Our observations and suggestions for enhancing future inventory
                         procedures were presented to management on March 25, 2002.

                       Task Forces, Committees, and Working Groups. The OIG provides
                       advice and counsel to GSA while monitoring ongoing agency initiatives.
                       Our representatives advise management at the earliest possible
                       opportunity of potential problems, help ensure that appropriate




                                                                       Office of Inspector General 27
                               Partnering with GSA Management




                                       management controls are provided when installing new or modifying
                                       existing Agency systems, and offer possible solutions when addressing
                                       complex financial issues.

                                       Our direct participation with the Agency on task forces, committees, and
                                       working groups allows us to contribute our expertise and advice, while
                                       improving our own familiarity with the Agency’s rapidly changing systems.
                                       We also benefit by expanding our new initiatives within the Federal
                                       community. We nevertheless maintain our ability to independently audit
                                       and review programs. Our participation in the task forces is typically as a
                                       non-voting advisory member.

                                       Some areas in which we have been involved this period include:

                                       • Federal Supply Service (FSS) Working Group. FSS has convened
                                         a working group to address certain negotiations and audit issues that
                                         were the subject of a recent OIG special report entitled “Multiple Award
                                         Schedule Pricing Practices.” The group, which is comprised of FSS
                                         and OIG representatives, is working towards issuing guidance to
                                         contracting officers and developing training initiatives on these issues.

                                       • Reimbursable Work Authorization (RWA) Committee in the
                                         National Capital Region. The OIG participates in periodic meetings of
                                         this committee, which assesses national and regional issues impacting
                                         financial or operational aspects of RWAs.

                                       • PBS Building Delegation Program. The Agency has been providing
                                         the OIG information on policy changes and has asked us to attend
                                         meetings for purposes of providing any input regarding controls and
                                         effects these changes may have on operations within buildings under
                                         the program.

                                       • The Information Technology (IT) Council. The Council monitors
                                         policies and programs to ensure IT consistency throughout the Agency.
                                         It is comprised of the Chief Information Officers of the various GSA
                                         Services and Staff Offices. Representatives of our office participate in
                                         meetings at the request of the Agency on such matters as systems
                                         controls, architecture, or new legislation requirements.




28 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments




                                Audit Reports Issued
                                The OIG issued 70 audit reports during this reporting period. The
                                70 reports contained financial recommendations totaling $82,946,633,
                                including $82,242,253 in recommendations that funds be put to better use
                                and $704,380 in questioned costs. Due to GSA’s mission of negotiating
                                contracts for governmentwide supplies and services, most of the savings
                                from recommendations that funds be put to better use would be
                                applicable to other Federal agencies.

                                Management Decisions on Audit Reports
                                Table 1 summarizes the status of the universe of audits requiring
                                management decisions during this period, as well as the status of those
                                audits as of March 31, 2002. Three reports more than 6 months old were
                                awaiting management decisions as of March 31, 2002; two of them were
                                preaward audits, issued before February 10, 1996, which are not subject
                                to the 6-month management decision requirement. Table 1 does not
                                include 4 reports issued to other agencies this period. Table 1 also does
                                not include 6 reports excluded from the management decision process
                                because they pertain to ongoing investigations.




                 Table 1. Management Decisions on OIG Audits
                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 10/1/01
  Less than six months old                          39                  26               $ 18,140,508
  Six or more months old                             3                   2                 41,263,418
Reports issued this period                          66                  29                 82,895,412
TOTAL                                              108                  57               $142,299,338
For which a management decision
was made during the reporting period
  Issued prior periods                              39                  26               $ 59,198,703
  Issued current period                             43                  12                 33,232,850
TOTAL                                               82                  38               $ 92,431,553
For which no management decision
had been made as of 3/31/02
  Less than six months old                          23                  17               $ 49,662,562
  Six or more months old                             3                   2                    205,223
TOTAL                                               26                  19               $ 49,867,785



                                                                              Office of Inspector General 29
                     Statistical Summary of OIG Accomplishments




                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing
                                       financial recommendations by category (funds to be put to better use or
                                       questioned costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                              No. of                      Financial
                                                             Reports                  Recommendations

       For which no management decision had
       been made as of 10/1/01
         Less than six months old                                20                    $ 17,791,465
         Six or more months old                                   2                      41,263,418
       Reports issued this period                                24                      82,191,032
       TOTAL                                                     46                    $141,245,915
       For which a management decision was
       made during the reporting period
         Recommendations agreed to by
         management based on proposed
         •management action                                      —                     $ 90,033,970
         •legislative action                                     —                               —
         Recommendations not agreed to
         by management                                           —                       1,401,537
       TOTAL                                                     29                   $ 91,435,507
       For which no management decision had
       been made as of 3/31/02
         Less than six months old                                16                   $ 49,607,065
         Six or more months old                                   1                        203,343
       TOTAL                                                     17                   $ 49,810,408




30 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




           Table 3. Management Decisions on OIG Audits
                      with Questioned Costs

                                    No. of               Questioned
                                   Reports                 Costs

For which no management decision
had been made as of 10/1/01
  Less than six months old             6              $ 349,043
  Six or more months old               0                       0
Reports issued this period             5                 704,380
TOTAL                                 11              $1,053,423
For which a management decision
was made during the reporting
period
  Disallowed costs                    —               $ 641,496
  Costs not disallowed                —                 354,550
TOTAL                                 9               $ 996,046
For which no management decision
had been made as of 3/31/02
  Less than six months old            1                $    55,497
  Six or more months old              1                      1,880
TOTAL                                 2                $    57,377




                                                   Office of Inspector General 31
                      Statistical Summary of OIG Accomplishments




                                       Investigative Workload
                                       The OIG opened 100 investigative cases and closed 121 cases during
                                       this period. In addition, the OIG received and evaluated 62 complaints
                                       and allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA
                                       officials on certain cases disclosing wrongdoing on the part of GSA
                                       employees, contractors, or private individuals doing business with the
                                       government.

                                  Table 4. Summary of OIG Referrals

              Type of Referral                           Cases                                Subjects
              Criminal                                     45                                     63
              Civil                                          4                                     7
              Administrative                               86                                   141
              TOTAL                                       135                                   211


                                       In addition, the OIG made 37 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 24 cases (39 subjects) were accepted
                                       for criminal prosecution and 7 cases (11 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       18 indictments/informations and 31 successful prosecutions. OIG civil
                                       referrals resulted in 1 case settlement. Based on OIG administrative
                                       referrals, management debarred 24 contractors/individuals, suspended
                                       38 contractors/individuals, and took 17 personnel actions against
                                       employees.




32 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments




                            Monetary Results
                            Table 5 presents the amounts of fines, penalties, settlements, judgments,
                            and restitutions payable to the U.S. Government as a result of criminal
                            and civil actions arising from OIG referrals.

                            In addition, the OIG had administrative recoveries of $2,530 during the
                            course of its investigations and recovered property with a fair market
                            value of $3,773,206.




                  Table 5. Criminal and Civil Recoveries
                                              Criminal                        Civil

Fines and Penalties                      $   736,709                   $       —

Settlements and Judgments                          —                       575,000

Restitutions                              11,822,913                           —

TOTAL                                    $12,559,622                   $575,000




                                                                            Office of Inspector General 33
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                   The remaining recommendation involves developing
process, the GSA Office of the Chief Financial Officer,      procedures, performing invoice verification, and
Office of the Controller, is responsible for tracking the    reviewing tax receipts. It is scheduled for completion
implementation of audit recommendations after a              by April 15, 2002.
management decision has been reached. That office
furnished the following status information.                  FSS’s Marketing Program
                                                             Period First Reported: April 1, 2001 to September 30, 2001
Nineteen audits highlighted in prior reports to the
                                                             The review assessed FSS’s marketing program. The
Congress have not yet been fully implemented; all are
                                                             report contained three recommendations; one has
being implemented in accordance with currently
                                                             been implemented.
established milestones.
                                                             The remaining recommendations include obtaining
Asbestos Management                                          electronic sales data and other customer information,
Period First Reported: April 1, 2001 to September 30, 2001   and continuing to develop the sales automation
The review assessed the administrative aspects of            system. The recommendations are scheduled for
asbestos management in one region. The report                completion by June 15, 2002.
contained two recommendations; one has been
implemented.
                                                             Overseas Supply Activity
                                                             Period First Reported: April 1, 2001 to September 30, 2001
The remaining recommendation involves establishing           The review focused on the establishment of Express
management control techniques. It is scheduled for           Stores. The report contained seven recommendations;
completion by January 15, 2003.                              two have been implemented.

PBS’s Fire Safety Risk Management                            The remaining recommendations involve proceeding
Period First Reported: April 1, 2001 to September 30, 2001   with cautious deliberation when opening a new store;
                                                             developing a more complete tolerance concerning
The review evaluated fire safety risk management in          recounting variances; using store employees in the
PBS facilities. The report contained one recommenda-         counting process and maintaining integrity over count
tion; it has not been implemented.                           procedures; recounting bulk items during inventory
                                                             counts; and ensuring that inventory reports are
The recommendation includes implementing a                   submitted in a timely manner. The recommendations
comprehensive fire safety management system that             are scheduled for completion by April 15, 2002.
focuses on a national fire safety strategy. The
recommendation is scheduled for completion by                Procurement Center Follow-Up
October 15, 2002.                                            Review
                                                             Period First Reported: April 1, 2001 to September 30, 2001
Utility Procurements–Natural Gas
Program                                                      The review examined the operations of FSS’s
Period First Reported: April 1, 2001 to September 30, 2001   Hardware SuperStore. The report contained five
                                                             recommendations; three have been implemented.
The review examined GSA’s Natural Gas Program.
The report contained four recommendations; three             The remaining recommendations include reevaluating
have been implemented.                                       the staffing requirements for the Special Order




                                                                                          Office of Inspector General 37
                    Appendix I–Significant Audits from Prior Reports



Program (SOP) and formalizing and reporting perform-         Controls over Proceeds from Real
ance measures for the SOP. The recommendations               Property Sales
are scheduled for completion by April 15, 2002.
                                                             Period First Reported: April 1, 2000 to September 30, 2000
Electronic Commerce Systems                                  The review focused on management controls over
Security                                                     proceeds from real property sales. The report
Period First Reported: April 1, 2001 to September 30, 2001   contained three recommendations; two have been
                                                             implemented.
The review examined nine selected electronic
commerce (EC) systems. The report contained four             The remaining recommendation involves testing
recommendations; they have not been implemented.             compliance with controls.    It is scheduled for
                                                             completion by September 15, 2002.
The recommendations include establishing a process
for review of system security requirements; providing        Information Tracking Process
guidance to clarify GSA Order 2100.1; tasking
                                                             Period First Reported: April 1, 2000 to September 30, 2000
appropriate Agency officials with responsibility for
GSA’s systems; and establishing a process to ensure          The review assessed FTS’ Integrated Task Order
responsibilities of key security personnel.      The         Management System. The report contained two
recommendations are scheduled for completion by              recommendations; one has been implemented.
August 15, 2002.
                                                             The remaining recommendation involves continuing
Controls over Smart Cards                                    current procurement methods and using FTS Chief
Period First Reported: October 1, 2000 to March 31, 2001     Information Office resources. It is scheduled for
                                                             completion by August 15, 2002.
The review examined management controls over smart
cards at a regional office building. The report              Contract Security Guard Program
contained three recommendations; two have been               Period First Reported: October 1, 1999 to March 31, 2000
implemented.
                                                             The review assessed the Contract Security Guard
The remaining recommendation involves amending               Program. The report contained eight recommenda-
procedures to include GSA employees and occupants            tions; six have been implemented.
of GSA-controlled space. The Audit Followup and
Evaluation Branch is awaiting a revised action plan to       The remaining recommendations include developing a
address the report’s recommendation.                         national training program, and witnessing firearm
                                                             qualification sessions and tracking qualification status
Operating Equipment Inventories                              of contract guards. They are scheduled for completion
Period First Reported: April 1, 2000 to September 30, 2000   by June 15, 2002.

The review focused on equipment maintenance                  Real Property Management
maintained by contractors. The report contained two          Information System
recommendations; one has been implemented.
                                                             Period First Reported: October 1, 1999 to March 31, 2000
The remaining recommendation involves identifying            The review evaluated the System for Tracking
the responsibility for maintenance programs to               and Administering Real Property (STAR). The report
contractors.   It is scheduled for completion by             contained four recommendations; one has been
October 15, 2003.                                            implemented.




38 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




The remaining recommendations include identifying            The remaining recommendation involves reporting cost
capabilities needed in STAR, developing a project plan,      data for future countermeasures. It is scheduled for
and establishing a project management team. They             completion by April 15, 2002.
are scheduled for completion by June 15, 2002.
                                                             Information Systems Security
Local Area Network Security Risks                            Period First Reported: April 1, 1998 to September 30, 1998
Period First Reported: April 1, 1999 to September 30, 1999
                                                             The review assessed the security measures of six
The review focused on the local area network (LAN)           major Internet and Intranet GSA applications. The
security. The report contained four recommendations;         report contained four recommendations; three have
two have been implemented.                                   been implemented.

The remaining recommendations include establishing           The remaining recommendation involves specifying
processes for managing accounts and contingency              roles and responsibilities to ensure security.
plans, and identifying controls for remote access to         It is scheduled for completion by August 15, 2002.
LANs.    Both are scheduled for completion by
August 15, 2002.                                             Megacenter Dispatch Services
                                                             Period First Reported: October 1, 1997 to March 31, 1998
Security Standards for New Buildings
                                                             The review focused on GSA’s plans to consolidate
Period First Reported: October 1, 1998 to March 31, 1999
                                                             security control centers into four megacenters. The
The review evaluated security standards for new and          report contained four recommendations; three have
renovated Federal buildings. The report contained two        been implemented.
recommendations; they have not been implemented.
                                                             The remaining recommendation involves implementing
The recommendations include defining roles and               a preventive alarm maintenance program. It is
responsibilities of individuals involved in building         scheduled for completion by September 15, 2002.
standards, and creating security standards for newly
acquired leased space. They are scheduled for                Contract Workload Management
completion between August 15, 2002 and                       Period First Reported: October 1, 1997 to March 31, 1998
November 15, 2002.
                                                             The review identified opportunities for improving
Security Enhancements in Federal                             workload management. The report contained one
Buildings                                                    recommendation; it has not yet been implemented.
Period First Reported: April 1, 1998 to September 30, 1998
                                                             The recommendation involves the need to automate
The review evaluated GSA’s program for upgrading             key activities of the contracting process. It is
security in Federal buildings. The report contained six      scheduled for completion by June 15, 2002.
recommendations; five have been implemented.




                                                                                          Office of Inspector General 39
                               Appendix II–Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put To       (Unsupported)
Report         Number                   Title                                Better Use          Costs


(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)

PBS Internal Audits
10/05/01       A010205         Management Consulting Review, County
                               Data and Custodial Market Survey, Region
                               1 PBS Operations Divisions

10/17/01       A001122         Review of PBS Use of the Occupancy
                               Agreement

01/15/02       A010269         Limited Review of Purchase Card
                               Transactions in the National Capital
                               Region

01/31/02       A020087         Limited Audit of the Public Buildings
                               Service’s Capital Investment Contribution
                               Performance Measure

02/26/02       A020087         Limited Audit of the Public Buildings
                               Service’s    Performance        Measure:
                               “Percentage Difference Between General
                               Services Administration’s Operating Costs
                               Per Rentable Square Foot for Office and
                               Office-Like Space and Private Sector
                               Costs”

03/05/02       A020087         Limited Audit of the Public Buildings
                               Service’s      Performance   Measure:
                               “Percentage of Tenants that Rate PBS
                               Owned and Operated Services as
                               Satisfactory or Better”

03/12/02       A020093         Alert Report on Review of Building Security
                               Countermeasures, Great Lakes Region

03/27/02       A010129         Audit of the Federal Protective Service’s
                               Federal Security Risk Manager Program

03/28/02       A010232         Audit of the Great Lakes Region Public
                               Buildings Service Lease Award Procedures




40 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                          Recommendations
                                                                      Funds to         Questioned
Date of    Audit                                                     Be Put To       (Unsupported)
Report     Number              Title                                 Better Use          Costs


03/29/02   A020092    Report on Federal Protective Service
                      Security Equipment Countermeasures
                      Installed at Federal Facilities

PBS Contract Audits
10/03/01   A010251    Audit of Supplemental Architect and
                      Engineering Services Contract:  C.M.
                      Architecture, P.A., Contract Number
                      GS05P01GBD0051

10/04/01   A010250    Audit of Supplemental Architect and
                      Engineering Services Contract:       Ross
                      Barney & Jankowski, Inc., Contract Number
                      GS05P01GBD0050

10/16/01   A010126    Audit of Claim for Increased Costs: Clark
                      Construction Group, Incorporated, Contract
                      Number GS-04P-96-EXC-0020

10/19/01   A010215    Preaward Audit of a Claim for Increased
                      Costs: Century Steel, Inc., Subcontractor to
                      J.A. Jones Construction Company, Inc.,
                      Lloyd D. George U.S. Courthouse, Las
                      Vegas, Nevada, Contract GS-09P-97-KTC-
                      0014

10/19/01   A010273    Audit of Supplemental Architect and
                      Engineering Services Contract: Interactive
                      Design,     Inc.,   Contract      Number
                      GS05P00GBD0048

10/23/01   A010172    Audit of Billings under Various Contracts:                         $19,306
                      Jensen Electric and Service Company

10/24/01   A010261    Audit of Claim for Increased Costs: The St.
                      Paul Companies, Contract Number GS-04P-
                      96-EXC-0020

10/31/01   A010265    Preaward Audit of Architect and Engineering
                      Services Contract:      HNTB District of
                      Columbia Architecture, P.C., Solicitation
                      Number GS-11P-00-MQC-0041




                                                                          Office of Inspector General 41
                               Appendix II–Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put To       (Unsupported)
Report         Number                   Title                                Better Use          Costs


11/08/01       A010214         Preaward Audit of a Claim for Increased
                               Costs: Strocal, Inc., Subcontractor to J.A.
                               Jones Construction Company, Lloyd D.
                               George U.S. Courthouse, Las Vegas,
                               Nevada, Contract Number GS-09P-97-
                               KTC-0014

11/30/01       A020039         Preaward Audit of Architect and
                               Engineering Services Contract: Kohn
                               Pedersen Fox Associates, P.C., Solicitation
                               Number GS-02P-01-DTC-0018(N)

11/30/01       A020072         Preaward     Audit   of   Supplemental
                               Construction   Management       Services
                               Contract:       Parsons     Brinckerhoff
                               Construction Services, Inc., Solicitation
                               Number GS-02P-01-DTD-0028(N)

12/11/01       A020081         Preaward Audit of Architect-Engineering
                               Services Term Contract:            OEST
                               Associates, Inc., Solicitation Number GS-
                               01P-01-BZD-0016

12/12/01       A010208         Audit of Small Business Subcontracting
                               Plan: J.A. Jones-GMO, LLC, Contract
                               Number GS-02P-99-DTC-0006(N)

12/12/01       A010270         Preaward Audit of Pricing Proposal for
                               Construction Manager Contract: Jacobs
                               Facilities,  Inc., Contract    Number
                               GS06P01GYD0010

12/13/01       A010271         Preaward Audit of Change Order Proposal:
                               John C. Grimberg Co., Inc., Contract
                               Number GS-11P99MAC0057

12/18/01       A020080         Preaward Audit of Architect-Engineering
                               Services Term Contract: Salamone &
                               Associates, P.C., Solicitation Number GS-
                               01P-01-BZD-0016




42 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                              Financial
                                                                         Recommendations
                                                                     Funds to         Questioned
Date of    Audit                                                    Be Put To       (Unsupported)
Report     Number             Title                                 Better Use          Costs


01/09/02   A020084   Preaward Audit of Supplemental Architect
                     and Engineering Services Contract: CHMP,
                     Inc., Solicitation Number GS-05P-01-GAD-
                     0072

01/11/02   A010281   Preaward Audit of a Claim for Increased
                     Costs: Lawson Mechanical Contractors,
                     Subcontractor to Morse Diesel International,
                     Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract
                     Number GS-09P-95-KTC-0032

01/17/02   A020085   Preaward Audit of Supplemental Architect
                     and Engineering Services Contract: Doshi
                     Associates, Inc., Solicitation Number GS-
                     05P-01-GAD-0072

01/23/02   A010275   Audit of Termination Settlement Proposal:
                     Ross Barney + Jankowski, Inc., Contract
                     Number GS06P99GZC0010

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air
                     Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number
                     GS-02P-95-DTC-0014

02/26/02   A010220   Preaward Audit of a Claim for Increased
                     Costs: J.A. Jones Construction Company,
                     Inc., Lloyd D. George U.S. Courthouse, Las
                     Vegas, Nevada, Contract Number GS-09P-
                     97-KTC-0014

03/25/02   A010280   Postaward Audit of Cost Accounting System:
                     Seattle Security Services, Inc., Armed Guard
                     Services Contract for Oregon and Northwest
                     Washington, Contract Number GS-10P-00-
                     LSD-0017




                                                                         Office of Inspector General 43
                               Appendix II–Audit Report Register

                                                                                     Financial
                                                                                Recommendations
                                                                            Funds to         Questioned
Date of        Audit                                                       Be Put To       (Unsupported)
Report         Number                   Title                              Better Use          Costs


FSS Internal Audits
02/14/02       A020087         Limited Audit of the Federal Supply
                               Service’s Performance Measure: “Percent
                               of Schedule Contracts Accessible through
                               GSA Advantage!”

03/13/02       A020087         Limited Audit of the Federal Supply
                               Service’s       Performance    Measure:
                               “Percentage of Responses in the Category
                               ‘Highly Satisfied’”

03/25/02       A020016         Review of Real and Personal Property at
                               Closing Supply Facilities

03/29/02       A010153         Follow-up Review of the Desktop Program
                               for Office Products

03/29/02       A010276         Review of Controls over FSS Employees’
                               Use of Purchase Cards

FSS Contract Audits
10/18/01       A63630          Postaward Audit of Multiple Award                            $426,359
                               Schedule     Contract:   The    Presidio
                               Corporation, Contract Number GS00K-95-
                               AGS-6170, Contract Period April 1, 1995
                               through March 31, 1996

10/19/01       A010260         Preaward Audit of Multiple Award Schedule
                               Contract: Lexmark International, Inc.,
                               Solicitation Number FCGE-C100-0001-B

10/31/01       A010246         Preaward Audit of Multiple Award Schedule
                               Contract for the Period October 1, 2001
                               through September 30, 2005: Kyocera
                               Mita America, Inc., Solicitation Number
                               FCGE-C1-00-0001-B

11/29/01       A010011         Limited    Scope    Postaward    Audit:
                               MasterCard International’s Compliance
                               with Fuel Tax Requirements under GSA’s
                               SmartPay Contract




44 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                              Financial
                                                                         Recommendations
                                                                     Funds to         Questioned
Date of    Audit                                                    Be Put To       (Unsupported)
Report     Number              Title                                Better Use          Costs


12/17/01   A010210    Preaward Audit of Multiple Award Schedule
                      Contract: Sharp Electronics Corporation,
                      Solicitation Number FCGE-C1-00-0001-B

12/18/01   A001123    Postaward Audit of Multiple Award Schedule                       $201,191
                      Contract: Rose Talbert Paint Company,
                      Contract Number GS-10F-48584, for the
                      Period May 9, 1988 through April 30, 1991

12/20/01   A010209    Preaward Audit of Multiple Award Schedule
                      Contract: Xerox Corporation, Solicitation
                      Number FCGE-C1-00-0001-B

01/17/02   A010247    Preaward Audit of Multiple Award Schedule
                      Contract: Cummings-Allison Corporation,
                      Solicitation Number FCGE-C1-00-0001-B

01/17/02   A010247    Limited Scope Postaward Audit of Multiple                          $2,027
                      Award Schedule Contract:       Cummings-
                      Allison Corporation, Contract Number GS-
                      25F-5126C

01/30/02   A010115    Preaward Audit of Multiple Award Schedule
                      Contract: Minolta Corporation, Solicitation
                      Number FCGE-C1-00-0001-B

03/07/02   A020108    Limited Scope Postaward Audit of the                              $55,497
                      Industrial Funding Fee Submitted under
                      Multiple Award Schedule Contract Number
                      GS26F1006B: Kyocera Mita America, Inc.

03/28/02   A020044    Limited Postaward Audit of Multiple Award
                      Schedule Contract: Litronic, Inc., Contract
                      Number GS-35F-4232D

FTS Internal Audits
02/14/02   A020087    Limited Audit of the Federal Technology
                      Service’s Performance Measure: “Reducing
                      the Average Monthly Line Rate”

03/28/02   A010240    Review of Small Business          Solutions
                      Development Center




                                                                         Office of Inspector General 45
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                 Recommendations
                                                                             Funds to         Questioned
Date of        Audit                                                        Be Put To       (Unsupported)
Report         Number                   Title                               Better Use          Costs


03/29/02       A020091         Review of the Need for Detailed
                               Telecommunications Billings under
                               FTS2001

FTS Contract Audits
10/19/01       A020015         Postaward Audit of Fiscal Year 2000
                               Incurred Costs: Mitretek Systems, Inc.,
                               Contract Number GS-00T-00NSD-0004

11/16/01       A010195         Postaward Audit of Billable Hours under
                               Master    Delivery     Order    Number
                               T0098AF0076: American Management
                               Systems,   Inc.,   Contract     Number
                               GSOOK95AFS0004

Other Internal Audits
11/07/01       A010212         Review of Controls over Heartland Region
                               Employees’ Use of Purchase and Travel
                               Cards

11/14/01       A010272         Report on Limited Audit of the Fiscal Year
                               2001 Federal Managers’ Financial Integrity
                               Assurance Statements

12/31/01       A010177         Review    of    GSA’s        Government
                               Performance and Results Act Annual
                               Performance Report for Fiscal Year 2000

01/14/02       A020087         Report on Internal        Controls   over
                               Performance Measures

01/17/02       A010023         GSA Faces Significant Challenges in
                               Deploying a Fully Integrated Pegasys
                               Financial Management System Solution

01/24/02       A010241         Advisory Review of GSA’s Public Buildings
                               Service    Purchase    Order     System
                               Rejections

02/05/02       A010187         Review of Payroll Internal Controls -- FY
                               2001




46 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                                Financial
                                                                           Recommendations
                                                                       Funds to         Questioned
Date of    Audit                                                      Be Put To       (Unsupported)
Report     Number              Title                                  Better Use          Costs


02/07/02   A010187   EDP Management Letter FY 2001 Financial
                     Statement Audit

02/12/02   A010272   Report on Limited Audit of the Chief Financial
                     Officer’s Fiscal Year 2001 Section 4 Federal
                     Manager’s Financial Integrity Act Assurance
                     Statement

02/14/02   A010229   Review of Controls over Rocky Mountain
                     Region Employees’ Use of Purchase Cards

03/26/02   A010277   Audit of GSA’s       Transition   from   Seat
                     Management

Non-GSA Internal Audits
12/14/01   A010187   General Services Administration Office of
                     Inspector General’s Report on Applying
                     Agreed-Upon Procedures

01/17/02   A010187   Report    on    Applying   Agreed-Upon
                     Procedures Re: Environmental Liabilities

01/17/02   A010187   Report    on    Applying    Agreed-Upon
                     Procedures Re: Legal Contingencies

Non-GSA Contract Audits
11/21/01   A010202   Audit of Unbilled Costs: Computer Sciences
                     Corporation,        Contract       Number
                     GSOOK96AJD0012




                                                                           Office of Inspector General 47
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.

Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
11/01/96       A21882          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                               September 30, 1991

11/01/96       A31851          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02598 for the Period August 26, 1988 Through
                               March 31, 1991

11/01/96       A31865          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02046 for the Period December 4, 1987 Through
                               September 30, 1990

03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

08/22/97       A70646          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                               GS-02P-94-CUC-0070(N)




48 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


09/22/97   A70649   Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                    Beacon/Pro Con, Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97   A71526   Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                    Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                    January 31, 2001

10/23/97   A70655   Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor
                    to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/24/97   A70660   Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                    Contract Number GS-02P-94-CUC-0070(N)

11/12/97   A70656   Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                    Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97   A22536   Postaward Audit of Multiple Award Schedule Contract:        Ingres Corporation,
                    Contract Number GS00K89AGS5589

11/26/97   A32476   Limited Audit of Government Billings:    Ingres Corporation, Contract Number
                    GS00K89AGS5589

12/24/97   A80602   Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80604   Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80608   Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                    GS-02P-94-CUC-0070(N)

02/05/98   A80609   Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                    Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                    CUC-0070(N)

02/11/98   A80607   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

03/19/98   A81515   Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                    Contract Number GS-07P-92-HUC-0017

04/13/98   A80621   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070 (N)

05/27/98   A42146   Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                    Contract Number GS-00F-07010




                                                                         Office of Inspector General 49
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


06/08/98       A80618          Postaward Audit of Recoverable Costs: Six World Trade Center, New York, NY,
                               Lease Number GS-02B-15370

06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

07/17/98       A60934          Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems,
                               Inc., Contract Number GS-00F-0002A for the Interim Period October 8, 1992
                               Through February 28, 1997

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H

09/24/98       A82456          Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                               Contract Number GS-07P-95-HUC-0068

10/13/98       A80636          Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                               Number GS-02P-96-DTC-0033

11/13/98       A82471          Preaward Audit of a Claim for Increased Costs:      Hensel Phelps Construction
                               Company, Contract Number GS-08P-96-JFC-0006

11/16/98       A80646          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070(N)

12/15/98       A82472          Preaward Audit of a Claim for Increased Costs: Trautman & Shreve, Inc.,
                               Subcontractor to Hensel Phelps Construction Company, Contract Number GS-
                               08P-96-JFC-0006

02/05/99       A995113         Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                               Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/17/99       A995100         Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                               Inc., Contract Number GS-03P-96-DXC-0021

03/30/99       A995150         Preaward Audit of Supplemental Architect and Engineering Services Contract;
                               Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                               PLD-0015(N)




50 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


04/02/99   A995182   Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                     Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

05/05/99   A995151   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

05/10/99   A995207   Audit of Recoverable Costs - FY 1997: Six World Trade Center, New York, N.Y.,
                     Lease Number GS-02B-15370

06/08/99   A995192   Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                     1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                     Number GS-26F-1018B

06/15/99   A42113    Postaward Audit of Multiple Award Schedule Contract:        Herman Miller Inc.,
                     Contract Number GS-00F-07000

06/15/99   A995171   Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                     EMN-1999-MO-2032 & EMN-1999-MO-2036

06/15/99   A995206   Audit of Recoverable Costs - FY 1995: Six World Trade Center, New York, N.Y.,
                     Lease Number GS-02B-15370

06/18/99   A995220   Audit of Claim for Increased Costs: PM Realty Group, Ltd., Contract Number
                     GS05P96GAC0187

06/22/99   A995164   Preaward Audit of Multiple Award Schedule Contract:         Compaq Computer
                     Corporation, Extension to Contract Number GS-35F-4544G

06/24/99   A995231   Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                     GS-02P-95-DTC-0041(N)

07/07/99   A995249   Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                     Number GS-02P-95-DTC-0041(N)

07/07/99   A995209   Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                     92CUC0029(N)

07/30/99   A995173   Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                     1999-MO-2032 & EMN-1999-MO-2036

08/12/99   A995215   Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                     & EMN-1999-MO-2036

09/09/99   A995283   Preaward Review of Multiple Award Schedule Contract:         National Education
                     Training Group, Inc., Contract Number GS-02B-22885




                                                                          Office of Inspector General 51
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


09/15/99       A52534          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                               Contract Number GS00K91AGS5288

09/15/99       A52565          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                               Contract Number GS00K91AGS5288 (PS01)

09/15/99       A52566          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                               Contract Number GS00K91AGS5288 (PS02)

09/23/99       A995296         Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                               Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                               2004

10/04/99       A995275         Preaward Audit of Change Order Proposal to Contract Number GS-
                               02P93CUC0071 for the Final Phase of the African Burial Ground Project, Howard
                               University

10/13/99       A995262         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                               Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99       A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                               Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/01/99       A995332         Preaward Audit of Cost or Pricing Data: Cupples Products, Inc., Solicitation
                               Number GS06P99GZC0309

11/04/99       A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                               Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99       A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                               LLP, Contract Number GS-02P-93-CUC-0062

11/29/99       A995304         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                               October 1, 1999 Through September 30, 2004: Coastal Video Communications
                               Corp., Contract Number GS-02F-9309C

11/30/99       A995289         Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                               Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                               Number GS-02P-93-CUC-0062

12/08/99       A995330         Preaward Audit of Multiple Award Schedule Contract: Caswell International
                               Corporation, Contract Number GS-02F-0434D

01/07/00       A000821         Preaward Audit of the Extension of Multiple Award Schedule Contract Number GS-
                               02F-1407H: Development Dimensions International, Inc.




52 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


01/11/00   A000819   Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                     Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                     93-CUC-0062

02/08/00   A995167   Price Adjustments on Multiple Award Schedule Contract: National Education
                     Training Group, Inc., Contract Number GS-02F-0429D for the Interim Period March
                     1, 2000 Through March 31, 2000

02/15/00   A40910    Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                     Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992

02/17/00   A000923   Preaward Audit of Multiple Award Schedule Contract: Shamrock Scientific
                     Specialty Systems, Inc., Contract Number GS-14F-9732C

03/02/00   A000934   Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                     Inc., Contract Number GS-14F-0150D

03/06/00   A000948   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                     Number GS-14F-0161D

03/06/00   A000963   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

03/09/00   A000911   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                     Contract Number GS-14F-9734C

03/10/00   A000936   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc., Contract
                     Number GS-14F-0177D

03/29/00   A81830    Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                     March 8, 1991 Through February 29, 1996

03/29/00   A995122   Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                     Period March 1, 1996 Through April 30, 1998

04/04/00   A000943   Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/13/00   A000972   Preaward Audit of Multiple Award Schedule Contract: Medical Plastics Laboratory,
                     Inc., Contract Number GS-02F-9315C




                                                                          Office of Inspector General 53
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


04/17/00       A000889         Preaward Audit of a Claim for Increased Costs: Italian Marble and Tile Company,
                               Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                               U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/25/00       A000975         Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                               Contract Number GS-14F-0193D

05/02/00       A000918         Preaward Audit of a Claim for Increased Costs: Morrow-Meadows Corporation,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/08/00       A000944         Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company,
                               Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                               U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/11/00       A000950         Preaward Audit of a Claim for Increased Costs: Moon and Crockett Plumbing
                               Corporation, Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                               Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                               KTC-0012

05/11/00       A000993         Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                               96-DTC-0033

05/16/00       A001007         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                               February 29, 2000 Through February 28, 2005: Franklin Covey, Contract Number
                               GS-14F-9729C

05/18/00       A000961         Preaward Audit of a Claim for Increased Costs: Washington Iron Works,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/18/00       A001009         Limited Postaward Audit of Multiple Award Schedule Contract: Day Runner,
                               Incorporated, Contract Number GS-14F-0193D

05/18/00       A42123          Postaward Audit of Multiple Award Schedule Contract: Coulter Source, Inc.,
                               Contract Number GS-00F-2383A

05/25/00       A000955         Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                               GS-23F-98006

05/26/00       A000853         Preaward Audit of a Claim for Increased Costs: Ray Wilson Company, Ronald
                               Reagan Federal Building & U.S. Courthouse, Santa Ana, California, Contract
                               Number GS-09P-95-KTC-0012

06/01/00       A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                               Triangle Project




54 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


06/27/00   A000860   Interim Postaward Audit: Voyager Fleet Systems, Inc.’s Compliance with Fuel Tax
                     Requirements under Contract Number GS-23F-98006

06/30/00   A001000   Limited Scope Postaward Audit: AOC Solutions, Inc., Contract Number GS-23F-
                     98006

07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

07/27/00   A001028   Limited Review of Contract Extension Claim: International Services, Inc., Contract
                     Number GS-02P-94-CTD-0141

07/28/00   A000916   Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/01/00   A001001   Preaward Audit of a Claim for Increased Costs: Aztec Fire Protection, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/23/00   A001018   Preaward Audit of a Claim for Increased Costs: Borbon, Inc., Subcontractor to Ray
                     Wilson Company, Ronald Reagan Federal Building & U.S. Courthouse, Santa Ana,
                     California, Contract Number GS-09P-95-KTC-0012

08/24/00   A000941   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/28/00   A001023   Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/31/00   A001044   Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

09/28/00   A001051   Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Solicitation
                     Number FCIS-JB-980001B-03-23-98

10/13/00   A001086   Audit of Claim for Increased Costs: Turner Construction Company, Contractor
                     Number GS05P94GBC0037

10/17/00   A001024   Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/17/00   A001110   Audit of Billings Under Contract Number GS06P97GYD0025: Commercial
                     Woodworking Co., Subcontractor to Novack/Hof Joint Venture

10/25/00   A001098   Preaward Audit of a Claim for Increased Costs: Well-Bilt Aluminum Products,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

                                                                           Office of Inspector General 55
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


10/25/00       A001108         Audit of Billings Under Contract Number GS06P97GYD0025: Aschinger Electric
                               Company, Subcontractor to Novack/Hof Joint Venture

10/30/00       A000942         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                               to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00       A001082         Preaward Audit of a Claim for Increased Costs: Invensys Building Systems, Inc.,
                               Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                               Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                               KTC-0012

11/08/00       A001085         Preaward Audit of a Claim for Increased Costs: D. Burke Mechanical Corp.,
                               Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                               Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                               KTC-0012

11/09/00       A001078         Preaward Audit of a Claim (Unresolved Change Orders): Warren Electrical
                               Construction Corporation, Subcontractor to Archer-Western Contractors, Ltd.,
                               Contract Number GS-03P-96-DXC-0017

12/07/00       A001025         Preaward Audit of a Claim for Increased Costs: Aztec Contracting, Inc.,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

12/13/00       A010047         Preaward Audit of Claim: Culpepper Construction Company, Inc., Contract Number
                               GS-04P-96-EXC-0033

12/21/00       A42160          Postaward Audit of Multiple Award Schedule Contract: Storage Technology
                               Corporation, Contract Number GS00K92AGS5574

12/28/00       A010087         Preaward Audit of Architect and Engineering Proposal: Morphosis, Solicitation
                               Number GS-11P-00-YQC-0082

12/28/00       A001027         Audit of Recoverable Costs - FY 1998: Six World Trade Center, New York, NY,
                               Lease Number GS-02B-15370

01/10/01       A001092         Audit of Billings under Contract Number GS06P99GZC0304: Wayne Automatic
                               Sprinkler Corporation, Subcontractor to Fire Assurance, Inc.

01/10/01       A001021         Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                               Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                               0322J

01/10/01       A001021         Postaward Audit of Multiple Award Schedule Contract and Industrial Funding Fee:
                               Merant, Inc. for the Interim Period March 26, 1999 Through September 30, 2000,
                               Contract Number GS-35F-0322J




56 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of    Audit
Report     Number                                  Title


01/18/01   A010051   Audit of Billings Under Contract Number GS06P97GYD0025: Murphy Company
                     Mechanical Contractors and Engineers, Inc., Subcontractor to Novack/Hof Joint
                     Venture

01/25/01   A001081   Preaward Audit of a Claim for Increased Costs: Coken Company, Inc.,
                     Subcontractor to Dick Corporation, U.S. Courthouse & Federal Building, Phoenix,
                     Arizona, Contract Number GS-09P-96-KTC-0070

01/29/01   A000909   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

02/06/01   A010094   Preaward Audit of a Claim: Smith & Oby Company, Contract Number GS-05P-99-
                     GBC-0025

02/08/01   A010089   Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                     Courthouse, Pensacola, FL, Lease Number GS-04B-35055

02/12/01   A001047   Preaward Audit of a Claim (Time Impact Costs): Warren Electrical Construction
                     Corporation, Subcontractor to Archer-Western Contractors, Ltd., Contract Number
                     GS-03P-96-DXC-0017

02/15/01   A001072   Audit of Claim for Increased Costs: Archer-Western Contractors, Ltd., Contract
                     Number GS-03P-96-DXC-0017

02/16/01   A010030   Audit of Billings under Contract Number GS06P97GYD0025: Novack/Hof Joint
                     Venture

02/28/01   A010093   Preaward Audit of a Change Order Proposal: J. Kokolakis Contracting, Inc.,
                     Contract Number GS-02P-98-DTC-0056N

03/02/01   A010099   Preaward Audit of Multiple Award Schedule Contract: Security Engineered
                     Machinery Company, Incorporated, Solicitation Number FCO-00-CORP-0000C

03/07/01   A010100   Audit of Claim for Unresolved Change Orders: Archer-Western Contractors, Ltd.,
                     Contract Number GS-03P-96-DXC-0017

03/20/01   A001119   Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                     99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01   A010169   Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                     Inc., Solicitation Number GSC-TFMGD-00-3006

03/30/01   A010161   Preaward Audit of Architect and Engineering Services Contract: Neumann/Smith &
                     Associates, Contract Number GS05P99GBC0020




                                                                          Office of Inspector General 57
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                              Projected Final
Report         Number                                         Title                                Action Date



Internal Audits
12/02/96       A63019          Audit of the PAPCAP Price Adjustments                                   04/15/02

01/30/98       A72443          Audit of the Megacenter Program, Federal Protective Service,            09/15/02
                               Public Buildings Service

03/30/98       A83007          Follow-up Review of the Contract Workload Management                    05/15/02

09/14/98       A70642          Audit of the Federal Protective Service’s Program for Upgrading         04/15/02
                               Security at Federal Facilities

09/24/99       A83602          GSA’s Information Systems Security Has Not Kept Pace With                   Being
                               Increasing Internet and Intranet Risks                                    revised

09/30/98       A72705          Arthur Andersen LLP, Fiscal Year 1997 Comments and                      07/15/02
                               Suggestions for Consideration (Management letter)

03/24/99       A995025         Audit of Security Measures for New and Renovated Federal                11/15/02
                               Facilities

07/15/99       A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year               01/15/04
                               1998 Financial Statement Audit

09/30/99       A995016         Security Weaknesses Place GSA’s Local Area Networks at Undue            08/15/02
                               Risk

03/28/00       A995175         Audit of the Federal Protective Service’s Contract Guard Program        06/15/02

03/31/00       A995010         PBS Needs to Complete STAR Development and Implement                    06/15/02
                               Management and System Controls to Fully Realize Improved
                               Capabilities

08/02/00       A995201         PricewaterhouseCoopers LLP Management Letter Fiscal Year                01/15/03
                               1999 Financial Statement Audit

08/21/00       A000913         Management Control Review: Public Buildings Service, Office of          09/15/02
                               Property Disposal, Controls Over The Proceeds From Sale Of
                               Surplus Real Property

09/18/00       A000815         Systems Audit of Integrated Task Order Management System,               08/15/02
                               Federal Technology Service

09/19/00       A995288         Audit of Federal Technology Service’s Use of Multiple Award,                Being
                               Indefinite Delivery Indefinite Quantity Contracts                         revised




58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of    Audit                                                                    Projected Final
Report     Number                                  Title                             Action Date



03/21/01   A001063   Review of Internal Controls Over Smart Cards Action Plan                 Being
                                                                                            revised


03/27/01   A000968   Review of Operating Equipment Inventories: Public Buildings          05/15/02
                     Service, New England Region




                                                                         Office of Inspector General 59
                                   Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                 • Persistent claims coordination among regional con-
                                                              tracting officers, Treasury, and our Finance Centers
Collection                                                    continues to strengthen our claims collection efforts.
During the period October 1, 2001 through March 31,
2002, GSA efforts to improve debt collection and            • Coordination of bankruptcy notification efforts has
reduce the amount of debt written off as uncollectible        improved between our Finance Centers.
focused on upgrading the collection function and              Bankruptcy notices received are now routinely
enhancing debt management. These activities includ-           reported between the Finance Centers to allow for
                                                              timely follow-up action.
ed the following:
                                                            • Efforts continue to enhance the Accounts
• From October 1, 2001 through March 31, 2002,
                                                              Receivable Claims System (ARCS) and the Billing
  GSA Finance Centers referred over $1.4 million of
                                                              Accounts Receivable Tracking system, making them
  delinquent non-Federal claims to the U.S.
                                                              better tools for collection technicians and enabling
  Department of the Treasury (Treasury) for cross-
                                                              them to provide better service to their
  servicing collection activities. FY 2002 collections        customers.
  on these claims, to date, exceed $29.4 million.
  Administrative offsets have resulted in an additional     • In February, the Heartland Region Claims Unit
  collection of $2.3 million. GSA also collects non-          began importing vehicle accident damage claims
  Federal claims using Pre-Authorized Debits (PADs).          from GSA’s Comprehensive Accident Records
  From October 1, 2001 to March 31, 2002, 17 PADs             System (CARS) and automatically recording them in
  totaling $7,917 were issued.                                ARCS. This automated interface eliminates the
                                                              need for the Claims Unit to manually record vehicle
• GSA also successfully negotiated settlements and            claims in ARCS and reduces the possibility of data
  collected over $1.1 million in delinquent billings from     input errors. In addition, the FSS Vehicle Accident
  the National Industries for the Blind/National              Damage Management Center does not have to print
  Industries for the Severely Handicapped (NIB/NISH)          copies of initial demand letters and Vehicle Accident
  contractors running DoD’s Base Supply Centers.              Reports (Form 3595) for the Claims Unit.




Non-Federal Accounts Receivable

                                                    As of                   As of
                                                October 1, 2001         March 31, 2002            Difference

     Total Amounts Due GSA                        $22,807,200            $22,031,650             ($ 755,550)

     Amount Delinquent                            $15,603,271            $13,522,950             ($2,080,321)

     Total Amount Written
     Off as Uncollectible
     Between 10/01/01 and
     3/31/02                                          $165,998




60   Semiannual Report to the Congress
  Appendix V–Report over 6 Months Old with No Management Decision


Date of       Audit
Report        Number                                        Title


09/28/01      A010252        Limited Scope Postaward Audit Review of Industrial Funding Fee Remittances:
                             ABM, Inc., Various GSA Multiple Award Schedule Contract Numbers

Pursuant to Section 5(a)(10) of the Inspector General   underreported their sales in six multiple award
Act of 1978, the OIG must summarize each audit report   schedule contracts during Calendar Year (CY) 2000
over 6 months old for which no management decision      and that GSA is due additional IFF payments. We also
has been made. During this period, management           suggested that management direct ABM to determine if
decision was not achieved on one interim postaward      it owes further amounts to GSA for underreporting sales
audit of ABM, Inc.                                      in years preceding CY 2000, as well as for CY 2001 to
                                                        date.
We performed an audit to evaluate the method that
ABM used to compute the industrial funding fee (IFF)    We are working with the Agency to resolve this matter,
payments and to determine whether the computation       and expect a management decision no later than
was correct and in accordance with the contract’s       April 30, 2002.
provisions. We advised GSA management that ABM




                                                                                   Office of Inspector General 61
                                   Appendix VI–Reporting Requirements




The table below cross-references the reporting require-                        Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                         1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                               and the National Defense Authorization Act is also
addressed.     The information requested by the                                cross-referenced to the appropriate page of the report.



  Requirement                                                                                                                              Page

  Inspector General Act

     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23–25

     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . .2, 12

     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 12

     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32

     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . .2, 12

     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31

     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30

     Section 5(a)(10) - Summary of Each Audit Report over 6 Months
      Old for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61

     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .60

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .48




62 Semiannual Report to the Congress
Notes




        Office of Inspector General 63
                                       Notes




64 Semiannual Report to the Congress
Make
like
it's
your
money!

It i
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General's Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405


Office of Inspector General
U.S. General Services Administration
